<html>
<title> - NATIONAL EMERGENCY MANAGEMENT: WHERE DOES FEMA BELONG?</title>
<body><pre>[Senate Hearing 109-974]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 109-974
 
         NATIONAL EMERGENCY MANAGEMENT: WHERE DOES FEMA BELONG?
=======================================================================
                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION


                               __________

                              JUNE 8, 2006

                               __________

        Available via http://www.access.gpo.gov/congress/senate

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs

                     U.S. GOVERNMENT PRINTING OFFICE

29-502 PDF                 WASHINGTON DC:  2006
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001
      















          
               COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                   SUSAN M. COLLINS, Maine, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
TOM COBURN, Oklahoma                 THOMAS R. CARPER, Delaware
LINCOLN D. CHAFEE, Rhode Island      MARK DAYTON, Minnesota
ROBERT F. BENNETT, Utah              FRANK LAUTENBERG, New Jersey
PETE V. DOMENICI, New Mexico         MARK PRYOR, Arkansas
JOHN W. WARNER, Virginia

           Michael D. Bopp, Staff Director and Chief Counsel
                   David T. Flanagan, General Counsel
                      Melvin D. Albritton, Counsel
                    Keith B. Janssen, USCG Detailee
             Michael L. Alexander, Minority Staff Director
                   Beth M. Grossman, Minority Counsel
                    Joshua A. Levy, Minority Counsel
                  Trina Driessnack Tyrer, Chief Clerk



















                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Collins..............................................     1
    Senator Lieberman............................................     3
    Senator Coleman..............................................     5
    Senator Carper...............................................     7
    Senator Voinovich............................................     9
    Senator Lautenberg...........................................    10
    Senator Coburn...............................................    12
    Senator Warner...............................................    54

                               WITNESSES
                         Thursday, June 8, 2006

Hon. Michael Chertoff, Secretary, U.S. Department of Homeland 
  Security.......................................................    13
Admiral Thad W. Allen, Commandant, U.S. Coast Guard..............    33
Donald F. Kettl, Ph.D., Director, Fels Institute of Government, 
  University of Pennsylvania.....................................    43
John R. Harrald, Ph.D., Director, Institute for Crisis, Disaster, 
  and Risk Management, The George Washington University..........    46

                     Alphabetical List of Witnesses

Allen, Admiral Thad W.:
    Testimony....................................................    33
    Prepared statement...........................................    77
Chertoff, Hon. Michael:
    Testimony....................................................    13
    Oral statement...............................................    61
    Prepared statement...........................................    64
Harrald, John R., Ph.D.:
    Testimony....................................................    46
    Prepared statement...........................................    93
Kettl, Donald F., Ph.D.:
    Testimony....................................................    43
    Prepared statement...........................................    82

                                APPENDIX

``The FEMA Phoenix,'' by Daniel Franklin, The Washington Monthly, 
  July/August 1995, article submitted by Senator Lautenberg......    97
Questions and responses for the Record from:
    Mr. Chertoff.................................................   104
``UASI Grant Program Allocations, FY 2006 UASI Allocations,'' 
  chart submitted by Secretary Chertoff..........................   108


         NATIONAL EMERGENCY MANAGEMENT: WHERE DOES FEMA BELONG?

                              ----------                              


                         THURSDAY, JUNE 8, 2006

                                       U.S. Senate,
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:05 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Susan M. 
Collins, Chairman of the Committee, presiding.
    Present: Senators Collins, Voinovich, Coleman, Coburn, 
Warner, Lieberman, Carper, and Lautenberg.

              OPENING STATEMENT OF SENATOR COLLINS

    Chairman Collins. The Committee will come to order.
    This morning the Committee will examine the structure of 
national emergency management in light of what we have learned 
through our investigation into Hurricane Katrina. Specifically, 
we are here to discuss our recommendation to rebuild and 
strengthen the Federal Emergency Management Agency (FEMA) and 
to keep it within the Department of Homeland Security.
    I would like to begin by thanking Secretary Chertoff, 
Admiral Allen, and our other expert witnesses for their 
participation today.
    And as always, I thank my Committee colleagues for their 
continuing commitment to a matter of such vital importance.
    Of the 88 recommendations in the Committee's report on 
Hurricane Katrina, the one we discuss today is the cornerstone. 
I believe that combining FEMA's existing personnel and assets 
with essential preparedness resources, such as grant programs 
and infrastructure protection initiatives, would substantially 
strengthen our emergency management capabilities.
    The new National Preparedness and Response Authority that 
Senator Lieberman and I have proposed would be responsible not 
just for disaster response, as FEMA is today, but also for 
disaster preparedness. We must put preparedness and response 
back together. They are, after all, two sides of the same coin.
    Like FEMA, the strong new agency we envision would be part 
of the Department of Homeland Security. This would enable the 
Authority to maintain close relationships with other crucial 
DHS assets, such as the Coast Guard and the law enforcement 
agencies within the Department. These are precisely the 
entities that can help in the response to a catastrophe by 
conducting critical search and rescue missions and by 
protecting lives and property. Maintaining this connection is 
of paramount importance if we are to build a true all-hazards 
comprehensive preparation and response structure.
    Now there are those who maintain that the answer is not to 
build a new structure within DHS but rather to return FEMA to 
the stand-alone status that it held before the Department was 
created. This position seems to be based on the notion that the 
pre-DHS years were somehow the golden age of FEMA.
    This position, regrettably, is not supported by the 
evidence. On the contrary, whether it was independent or part 
of DHS, FEMA has had its ups and downs, its successes and 
failures over the years. The rosy view of the years when FEMA 
was independent ignores a long history of severe problems that 
FEMA experienced in dealing with major disasters.
    After Hurricane Andrew in 1992, for example, the Democratic 
Chairman of this Committee cited ``Victims who have bitterly 
complained that FEMA's follow-up on many occasions was an even 
bigger disaster.''
    He went on to say, ``Since its inception, FEMA has been 
plagued with a host of problems.''
    The Government Accountability Office found that FEMA's 
response to Hurricane Andrew ``raised serious doubts about 
whether FEMA is capable of responding to catastrophic 
disasters.'' In particular, the GAO found that the Federal 
strategy back then lacked provisions to assess damage and the 
needs of the victims and to provide food, shelter, and other 
essential services when the needs of the victims outstripped 
State and local resources.
    The very same problems that hampered FEMA's performance 
during Hurricane Katrina were present a decade before DHS was 
even formed. Just this March, at one of our Hurricane Katrina 
hearings, Professor Herman Leonard of the Harvard Business 
School testified that FEMA was never designed or prepared in 
its entire history to manage a major catastrophe.
    The FEMA Office of the Inspector General issued reports in 
1994, 1995, and 2001 concluding over and over again that there 
were not adequate controls at FEMA to ensure that mission 
assignments were carried out at a reasonable cost and with 
acceptable performance. Again, the same kind of problems that 
we have seen with Hurricane Katrina.
    The inadequate controls that the IG initially identified 
more than a decade ago plagued FEMA's assistance programs in 
the aftermath of the Florida hurricanes in 2004, not to mention 
Hurricane Katrina. Again, this is nothing new. Severe flaws in 
protecting the American taxpayers against waste, fraud, and 
abuse were flagged by the GAO in 1996 and by the Inspector 
General in 2000.
    In answering the question of where FEMA belongs, it is 
instructive to look at the reasons that FEMA was moved into the 
Department of Homeland Security in the first place. In 2001, 
the Hart-Rudman Commission, named after two of our former 
colleagues, recommended that the Federal Government create a 
single department responsible for planning, coordinating, and 
integrating various government activities involved in homeland 
security. The Hart-Rudman Commission called for the new 
department to have FEMA as its ``necessary core.'' The goal was 
to create a structure that would, in the Commission's words, 
``Provide Federal assistance for any emergency, whether it is 
caused by a flood, earthquake, hurricane, disease, or terrorist 
bomb.''
    The Commission wisely recognized that the planning and 
training required to prevent or respond to a terrorist attack 
are largely identical to that required for a natural disaster. 
An attack by a weapon of mass destruction, for example, would 
likely contaminate food and water and require large-scale 
evacuations and shelters, just as Hurricane Katrina did.
    The effects on our population of a pandemic disease would 
be the same, whether it is spread by birds or created in a 
laboratory and unleashed by terrorists.
    If FEMA were removed from DHS, a duplicative agency would 
inevitably have to be created within DHS at additional cost to 
the taxpayer. Preparedness and response are functions so 
fundamental to the Department's mission that it simply could 
not operate effectively without them.
    That ``necessary core,'' to use the words of the Hart-
Rudman Commission, is no less necessary today. But the core's 
long-standing weaknesses have been exposed by Hurricane 
Katrina, and they can no longer be ignored. FEMA must be 
rebuilt, and it must be a truly comprehensive all-hazards 
national emergency management structure within the Department 
of Homeland Security.
    And that is the foundation upon which our proposal stands.
    Finally, let me turn very quickly to another issue that has 
been in the news a great deal lately, and that is the 
allocation of homeland security funds. That is not the topic of 
today's hearing, but it is of great interest to the Members of 
this Committee. Secretary Chertoff, I would say to you that you 
have managed to do what I thought was impossible, which is to 
make both New York and Maine equally unhappy.
    Senator Lieberman. I would add Connecticut to that.
    Chairman Collins. Connecticut, as well, and Minnesota and 
Michigan.
    Secretary Chertoff. Actually, Michigan should be happy.
    Chairman Collins. This is an issue that we will be pursuing 
at another time. I continue to think the answer is the 
legislation that Senator Lieberman and I have proposed. We are 
going to be working with our colleagues on this Committee and 
on the House side, and I hope that we will be able to put this 
issue to rest once and for all.
    Senator Lieberman.

             OPENING STATEMENT OF SENATOR LIEBERMAN

    Senator Lieberman. Thanks very much, Madam Chairman, for an 
excellent opening statement. I agree with everything you said, 
and therefore I will try to abbreviate mine.
    Welcome to you, Secretary Chertoff. A special welcome to 
you, Admiral Allen. Thank you for your service. We all remember 
your extraordinary leadership in the aftermath and actually 
during Hurricane Katrina with all of your fellow members of the 
Coast Guard. And thank you for it.
    Madam Chairman, as you indicated, this Committee issued 
just last month an extensive analysis of what went wrong during 
the preparations for and response to Hurricane Katrina. I know, 
Mr. Secretary, you are familiar with our findings and also with 
the recommendation contained within the report to rebuild FEMA 
into a more muscular, accountable agency within the Department 
of Homeland Security.
    I am pleased that you also believe that FEMA should remain 
within the Department. And I may say, I hope after we reason 
together that you will also come to agree with our other 
reorganization proposals, which we believe, in a bipartisan 
way, would pull together the resources, the missions, and the 
authority for an effective Federal catastrophic response, 
particularly when local and State agencies are simply 
overwhelmed.
    I just want to say, because time tends to dull the memories 
of all of us, that our driving motivation for rebuilding and 
reinventing FEMA is to save lives and to protect people's lives 
and to help those who survive disasters rebuild their lives.
    Over 1,500 people lost their lives as a result of Hurricane 
Katrina. That is a devastating number when we consider that no 
other storm in the last 30 years caused as many as 100 deaths. 
But this one brought about the end of the lives of 1,500 
people. Tens of thousands were left without basic necessities 
for days in conditions that shocked all Americans. The fact is 
that still today, months after the hurricane and at the start 
of yet another hurricane season, hundreds of thousands 
displaced by Hurricanes Katrina and Rita still face uncertain 
futures. We can and must do better together.
    As you know, I and the report itself were critical of the 
leadership at the Federal, State, and local level in the 
immediate run up to and aftermath of Hurricane Katrina. 
Probably active and decisive leadership is the single most 
important factor in a disaster or catastrophe.
    But what we are saying in our bill is that appropriate 
governmental structures and organization--organization that 
leads to preparedness--are second in importance. They can be 
very important.
    I join by reference what Senator Collins has said, that we 
have all got to remember that when the Department of Homeland 
Security was created, it was created in vision of the Hart-
Rudman Report, and those of us who sponsored the original 
legislation with FEMA at its core did so because this was going 
to be a stronger, more comprehensive emergency management and 
response agency.
    Unfortunately, I think both the Administration and Congress 
have undermined that vision by depriving FEMA of the best 
leaders and adequate funding in years past. And then, 
obviously, Secretary Ridge and you took the preparedness 
functions out of FEMA, placing them elsewhere in your 
Department. I believe that was a mistake.
    That is why Senator Collins and I have proposed to reunite 
preparedness with response so that the same officials who 
helped State and local government emergency managers get ready 
for disasters are also the ones who help them respond. We see 
preparedness and response as two sides of the same critical 
coin.
    We also believe that FEMA should be less Washington-centric 
and more connected to the real work of preparing for disasters 
where they actually occur. So our proposal envisions a rebuilt 
FEMA with 10 strengthened regional offices to focus on 
preparedness and response coordination with local and State 
agencies, obviously focused on the kinds of natural disasters 
that are more likely to occur in that region, as opposed to 
other regions.
    Each regional office would house a permanent strike team 
that would include representatives from other Federal agencies 
involved in emergency response to ensure that the Federal 
Government is familiar with regional threats and personally 
with State and local emergency personnel. Our rebuilt FEMA 
would be designed to deliver the kind of rapid, energetic, 
courageous, and life-saving response exhibited by the U.S. 
Coast Guard during and after Hurricane Katrina.
    I note, as Senator Collins has, that the Coast Guard is 
obviously part of the Department of Homeland Security today, 
has a role defined by statute, which is just what we propose 
for our bigger and better FEMA. This obviously did not inhibit, 
in fact it strengthened, the capacity of the Coast Guard to 
deliver before and during Hurricane Katrina.
    Finally, and really importantly, our legislation would 
require the new agency's, that is FEMA's, top leaders to have 
the experience, the professional qualifications, and the 
relevant technical training that will enable them to give the 
American people the leadership that we expect during a 
catastrophe.
    Finally, let me just add a brief word to what Senator 
Collins has said with regard to the current controversy about 
grants. I do not like the way the formula worked out either, as 
we have all said. But I do think we have got to face this 
reality. And again, the responsibility here is shared by the 
Administration and Congress. We continue to underfund one of 
the most crucial needs of our country today, and that is the 
grants that allow State and local first preventers and 
responders to conduct the extensive planning and get the 
training and equipment they need to do their jobs.
    For the second year in a row, this funding has actually 
declined. The Administration's budget for next fiscal year 
proposes significant additional cuts as well. Yet it is obvious 
that the risks to our communities, whether by natural disaster 
or terrorist attack, have not diminished.
    So that while we are, I think justifiably, angry at the 
allocations that you announced last week, we have also got to 
face the fact that no matter how good the allocations are or 
how much we agree with them, unless we put more money into that 
pipeline we are not going to get the homeland security that we 
need, regardless of how good our structures are.
    So I would say that we have got to be prepared to give the 
American people an emergency management structure that works, 
clear authority, strong leadership, and then adequate funds to 
make it work.
    Thank you very much.
    Chairman Collins. Thank you. Senator Coleman.

              OPENING STATEMENT OF SENATOR COLEMAN

    Senator Coleman. Thank you, Madam Chairman. I will enter my 
full statement for the record.
    Chairman Collins. Without objection.
    [The prepared statement of Senator Coleman follows:]
                 PREPARED STATEMENT OF SENATOR COLEMAN
    In the aftermath of last year's disastrous hurricane season, there 
have been several proposals put forward that focus on reforming FEMA. 
Certainly, as the response to the Hurricane Katrina catastrophe 
demonstrated, FEMA is faced with severe and deep-rooted problems and I 
think we can all agree that the agency needs to be strengthened. That 
being said, I believe that the problems that occurred in the response 
to Hurricane Katrina had more to do with FEMA's leadership rather than 
it not being separate from the Department of Homeland Security.
    The Committee's report on Hurricane Katrina detailed FEMA's 
leadership problems:

    1.  FEMA's senior political appointees, including Director Michael 
Brown and Deputy Director Patrick Rhode, had little or no prior 
relevant emergency-management experience before joining FEMA.

    2.  Michael Brown, FEMA's director, was insubordinate, unqualified, 
and counterproductive, in that he:

        a.  sent a single employee, without operational expertise or 
equipment and from the New England region to New Orleans before 
landfall;
        b.  circumvented his chain of command and failed to communicate 
critical information to the Secretary;
        c.  failed to deliver on commitments made to Louisiana's 
leaders for buses;
        d.  traveled to Baton Rouge with FEMA public affairs and 
congressional relations employees and a personal aide and no 
operational experts;
        e.  failed to organize FEMA's or other Federal efforts in any 
meaningful way; and
        f.  failed to adequately carry out responsibilities as FEMA's 
lead official in the Gulf before landfall and when he was appointed as 
the Principal Federal Official after landfall.

    3.  FEMA was unprepared--and has never been prepared--for a 
catastrophic event of the scale of Hurricane Katrina.

    4.  FEMA's emergency-response teams were inadequately trained, 
exercised and equipped.

    5.  FEMA failed to adequately develop emergency-response 
capabilities assigned to it under the National Response Plan.

    These leadership failures lead me to disagree with the claims that 
if FEMA were separate from DHS, the response to Hurricane Katrina would 
have been better. At the Committee's March 7 hearing on FEMA reform, 
DHS Inspector General Skinner was specifically asked about this 
scenario and he also concluded that even if FEMA was separate from DHS 
during Hurricane Katrina, many of the same problems would have occurred 
because of the leadership failures.
    Whether one has a positive or negative view of FEMA's history, the 
September 11 attacks and the creation of DHS fundamentally changed the 
way this Nation prepares and responds to disasters, whether natural or 
man-made. Given these changes, it does not make sense to have one 
agency doing preparedness for terrorist attacks and another agency 
doing preparedness for natural disasters. One of the purposes of 
creating DHS was to consolidate Federal resources involved in disaster 
preparedness and response. A successful example of this synergy is the 
U.S. Coast Guard, which performed thousands of heroic rescues following 
Hurricane Katrina. Strengthening FEMA as a part of DHS will only make 
this synergy stronger and not isolate the agency from the vital 
resources the Department has to offer.
    On another note, but on the subject of disaster preparedness, I do 
have deep concerns regarding the cuts this year to the Homeland 
Security Grant Program. I understand that funding for these grants were 
reduced by 30 percent when compared as last year, but Minnesota took a 
41 percent cut and like many other States will have to delay projects, 
and perhaps stop doing some homeland security activities. The recent 
arrest and breaking up of a terrorist cell across our northern border 
is another blunt reminder that we are still at war with terrorists and 
our States need to have the resources to protect their citizens.
    Each year, our States play a guessing game with regard to this 
funding and I want to reiterate my concerns that this unpredictability 
and lack of continuity can impede effective homeland security. As a 
remedy, I have supported legislation developed by Chairman Collins and 
Ranking Member Lieberman that would ensure continuity and 
accountability in terms of money distributed to cities and States. We 
need long term solutions for this problem for the sake of Minnesota's 
and the Nation's security.
    I would like to thank our distinguished Chairman and Ranking Member 
for holding this important hearing today and I look forward to hearing 
our witness' testimony.

    Senator Coleman. I want to start by associating myself with 
the comments of the Chairman and the Ranking Member. I am not 
there totally on all of the details of the rebuilt FEMA, but I 
am close to there. But clearly the idea of FEMA staying within 
the Department of Homeland Security and literally all of the 
things that the Chairman has laid out, I strongly associate 
myself with that.
    Just if I can make two observations. One, we will have 
another hearing on the funding. But if I can say briefly, 
Minnesota took a 41 percent cut, pretty significant. The 
concern I have is with consistency. These kinds of ups and 
downs do not allow for long-term planning. I was a mayor for 8 
years. You cannot operate that way. You have to have a sense of 
consistency here.
    Clearly, with the incident of terrorists across our 
northern border, all of our communities are at risk. And I 
think the legislation that the Chairman and the Ranking Member 
have put forth, and I have been supportive of, would go a long 
way toward resolving some of these. I just want to put that 
issue on the table.
    One other issue I want to put on the table, and that is 
this issue of public confidence. I was always a believer, again 
in my former service as mayor, that when people had hope and 
confidence, they invested. If they do not have hope and 
confidence, we are in trouble. If you look at the surveys that 
are going on now, I think Time Magazine had one, people do not 
have confidence in FEMA. Those who have been most directly 
impacted by FEMA services have less confidence than even the 
broader public.
    And so I think the confidence issue is resolved both by 
words and deeds. It is clear the first response we have to the 
next hurricane is going to make a big difference. And I presume 
the Secretary fully understands that. But I just want to stress 
the importance, that we have a confidence gap right now. And 
that impacts people's lives. It impacts the choices they make 
and the decisions they make.
    And so as we talk about structure and reorganization, I do 
not want us to forget about this important lack of confidence 
and the things we must do, both in words and deeds, to lift 
that up because I think it will have a significant multiplier 
effect if the confidence level is raised. Thank you.
    Chairman Collins. Thank you. Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thanks, Madam Chairman. I have a statement 
for the record.
    [The prepared statement of Senator Carper follows:]
                  PREPARED STATEMENT OF SENATOR CARPER
    Thank you, Madam Chairman.
    I'd like to begin by congratulating you and our Ranking Member, 
Senator Lieberman, for moving so swiftly after Hurricane Katrina to 
find out what went wrong and what needs to be done to prevent a repeat 
of that tragedy.
    As my colleagues are aware, last week marked the official beginning 
of hurricane season along the Gulf and Atlantic coasts. While the 
experts are predicting less activity this year than last, I'm certain 
we'll experience at least a few major storms.
    Because of our experience with Hurricane Katrina, I think FEMA 
might be at least somewhat better prepared for the 2006 hurricane 
season than it was last year. We now have experienced leadership on 
board in the form of David Paulison, someone who managed the response 
to a number of major storms during his time in Miami-Dade county.
    And based on what I've heard from Chief Paulison and key emergency 
response personnel in my State, FEMA has been busy in the months since 
Hurricane Katrina filling staff vacancies and responding to lessons 
learned from their experiences on the Gulf Coast.
    That said, the FEMA that will respond to the next hurricane is, for 
the most part, the same FEMA that responded to Hurricane Katrina. I'm 
pleased, then, that we have Secretary Chertoff, Admiral Allen, and some 
experts in the emergency response field here to help us learn some more 
about what--if any--structural changes need to be made to FEMA and the 
Department of Homeland Security to make us truly prepared for major 
disasters, whether natural or man-made.

    Senator Carper. I want to say to Secretary Chertoff, 
welcome. Every now and then, Mr. Secretary, I complain to my 
wife about some aspect of my job. And she says do not complain 
to me, I thought you wanted this job.
    I do not know if you and your wife ever have those kinds of 
conversations, but as you sit here today thinking that rather 
than sitting here you could be with the Third Circuit Court of 
Appeals, enjoying a lifetime appointment and a far less hectic 
life and less demanding life I am sure than that which you 
face, we are glad you are here.
    You have had about a year or so to get some time under your 
belt and figure out how to deal with some of the issues that 
are coming your way.
    Senator Lieberman and others have commented on the level of 
funding, whether it is Maine or Connecticut or New York or 
other States. Delaware is not complaining. I just want to say 
that for the record. It is not that we are getting more money 
than we got last year, but I think we are actually getting 
less. But we are not going to complain about the allocation.
    I would point out to my colleagues, we are going to have a 
chance to vote in a couple of hours on a proposal to allow us 
to diminish even further the funds that are available whether 
it is for responding to natural disasters, whether it is monies 
to provide help to folks in the cold of the winter trying to 
heat their homes, whether it is money to provide for kids that 
are in the Head Start programs, or any variety of needs in this 
country. It will be interesting to see how we answer the bell 
on that particular vote in a couple of hours.
    The structure of FEMA and the structure of the Department 
of Homeland Security is obviously important. A lot of time and 
effort have gone into the work by our Chairman and Ranking 
Democrat, our staff as well, to try to figure out how do we 
restructure homeland security and FEMA in order to better meet 
the challenges that are going to come literally in a couple of 
weeks.
    Big storms are going to be coming this year. We know that. 
The question is how further we have to change the agency or the 
agencies to enable us to respond.
    As important as structure is, and it is clearly important, 
just as important is leadership. That includes your leadership. 
That includes the leadership of David Paulison, who we have 
confirmed to head up FEMA, and the people on the team that he 
has assembled, your ability to work and communicate together, 
their ability to follow the chain of command, but your 
responsibly as a leader to respond quickly and with the kind of 
attention that the emergencies that you will face as they come 
across the bow.
    One of the biggest problems we had before was I think some 
of the folks who were running the Agency were not up to the 
task. What we have to do, we cannot change that now but we can 
sure change it going forward. And I hope we have with the 
selection of David Paulison.
    The other thing that can change is the way that you respond 
to the folks that are going to be working for you and FEMA or 
whatever we put in its place.
    I look forward to hearing from you.
    The last thing I want to say, Madam Chairman, as important 
as it is for the Federal Government to have its act together, 
as an old governor--we have a couple of old governors and 
mayors here--there is also a responsibility that the States and 
the local authorities have. This is a team effort, and they are 
big being a part of that team, and they need to be up to the 
task, as well.
    Chairman Collins. Thank you. Senator Voinovich.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. Thank you, Madam Chairman, for holding 
this hearing.
    Before I discuss FEMA, I want to address three concerns 
briefly.
    First of all, Congress has appropriated less money for 
homeland security grants, and you have allocated based on risk 
management. And I am not complaining about the allocations 
because I believe a risk management formula is the correct 
approach for homeland security grants.
    Second, I urge you to increase funding for Emergency 
Management Performance grants. EMPG is the backbone of our 
State Emergency Management System.
    Third, we have a responsibility as a Committee to restore 
the money cut out of your MAX HR human resource initiative so 
that you can do the job that we have asked you to do.
    I want you to know that I share the Chairman and Ranking 
Member's concern about the deficiencies and the response at 
every level to Hurricane Katrina.
    Following the catastrophe in the Gulf Coast, like many of 
my colleagues, I wondered whether FEMA should be restored as an 
independent cabinet-level agency. And I have dedicated much 
thought to this issue, including a long discussion with my good 
friend, James Lee Witt, who I got to know quite well when I was 
governor.
    After serious consideration, I have concluded that although 
factors relating to the merger of FEMA and DHS, such as the 
loss of key personnel, may have initially disrupted the 
Agency's response capabilities, FEMA's absorption into DHS was 
not the decisive factor in the inadequate response to Hurricane 
Katrina. The truth is that FEMA was never equipped to handle a 
catastrophic disaster like we had in Hurricane Katrina.
    I believe too much emphasis has been placed on the 
organizational structure and placement of FEMA. From my 
perspective as a former mayor and governor, organizational 
structures do not guarantee successful outcomes. I have dealt 
with organizational change and have found that you can have the 
best organizational structure in the world and still fail. It 
is the people who make the biggest difference in any 
organization's success or failure.
    Instead of moving the boxes around again, we should focus 
on ensuring that DHS and FEMA are working as effectively as 
possible to improve mission performance and achieve results by 
assembling a strong workforce with experienced leaders, such as 
David Paulison, strengthening institutional capabilities and 
planning, and making the best use of budgetary and 
technological resources. I have grave concerns that another 
reorganization of FEMA and the Department of Homeland Security 
would be disruptive and could cause more harm than good.
    Major reorganizations require time and energy and could 
detract from the critical mission performance at DHS.
    I also would note that reorganizations are not budget 
neutral. While the Senate FEMA reorganization proposals do not 
yet have CBO scores, both of the House proposals are scored at 
over $1 billion over 5 years. We need to ask ourselves whether 
this is the best use of our limited Federal budgetary resources 
or whether these funds could be put to better use, for example, 
funding improvements in interoperable communications or 
Emergency Management Performance Grants.
    Mr. Secretary, as always, I appreciate your appearance 
before this Committee. I look forward to hearing from you.
    Last but not least, you have got the job for the next 2\1/
2\ years. I sincerely believe this Committee should listen to 
you to learn what you need to run your Department. I have 
observed, with all due respect to the Senate, that we have 
wonderful ideas about administrative organization. When it 
works, we are only too happy to take credit, but when it does 
not work, we are nowhere to be found. Mr. Secretary, I think 
the Committee owes you the opportunity to manage your 
Department as you think best.
    But I want you to understand that we are going to hold you 
responsible for what happens at the Department. The buck stops 
with you, Mr. Secretary. Thank you.
    Chairman Collins. Senator Lautenberg.

            OPENING STATEMENT OF SENATOR LAUTENBERG

    Senator Lautenberg. Thank you, Madam Chairman. I ask 
unanimous consent that the full statement that I have prepared 
be entered into the record as if read.
    Chairman Collins. Without objection.
    [The prepared statement of Senator Lautenberg follows:]
                PREPARED STATEMENT OF SENATOR LAUTENBERG
    Madam Chairman, thank you for holding this hearing and giving us an 
opportunity to discuss the important question of whether FEMA should be 
removed from the Department of Homeland Security, and if not, how it 
should be restructured within the Department.
    As you know, I believe FEMA should be separated from DHS and 
restored to its previous status as an independent cabinet-level agency. 
This would serve at least three critical purposes.
    First, it would give the FEMA Director regular access to the 
President, the White House, and the rest of the cabinet at all times--
not just during a national catastrophe.
    Second, it would give Director Paulison a stronger voice to 
advocate for FEMA's budget and priorities.
    Third, it would free FEMA of several layers of bureaucracy at DHS 
that have made it harder for the agency to do its job.
    This was how FEMA was structured during the Clinton Administration, 
under the leadership of James Lee Witt. And under that system, FEMA 
worked well.
    Over the past several weeks, I have heard the arguments that 
removing FEMA from DHS would not remedy the problems exposed by 
Hurricane Katrina. I have heard that a big part of the problem at FEMA 
was its weak, ineffective, and incompetent leadership. This is one 
point on which we can all agree.
    If this Administration continues to rely on political cronies and 
sidekicks to direct our emergency management operations, simply 
removing FEMA from DHS would not solve the problems. FEMA has suffered 
from poor leadership, and that must be fixed. But FEMA's subservient 
position inside DHS has also contributed to plummeting morale and a 
loss of qualified professional staff.
    It has also been noted that Hurricane Katrina was not an ordinary 
disaster. It was a catastrophe on a scale that our Nation has never 
seen. We have no way of knowing exactly how FEMA might have responded 
under strong, independent leadership. But I believe that a strong, 
independent FEMA would have been better funded. It would have been 
fully staffed with dedicated employees. And it would have commanded 
greater authority and the ability to marshal needed resources 
throughout the Federal Government.
    Some of those who don't want to restore FEMA to cabinet-level 
status have cited the outstanding performance by the Coast Guard in 
response to Hurricane Katrina. Amid the horror and despair of that 
catastrophe, every American was proud watching the Coast Guard in 
action. But it is misleading to compare FEMA to the Coast Guard. The 
Coast Guard was not a cabinet-level agency prior to being placed into 
DHS. The Coast Guard did not have an essential part of its mission 
taken away, as FEMA did. Most important, the Coast Guard wasn't misused 
as a dumping ground for campaign workers and college chums, as FEMA 
was.
    When FEMA was folded into DHS, it was thrust into intense 
bureaucratic infighting over proper roles and resources. This 
infighting only compounded the problems with FEMA's leadership. To cite 
one example, while Michael Brown can be blamed for poor communication, 
the fact is that the Homeland Security Operations Center received 
numerous messages about levee breaches and flooding in New Orleans. Yet 
DHS failed to respond to that information for more than 24 hours after 
Hurricane Katrina made landfall.
    Madam Chairman, in our nomination hearing for Director Paulison, 
you stated that, ``FEMA lacks the stature, the protection, the 
resources, the connections with State and local officials and 
responders, and the direct communication with the President that are 
essential in responding to a catastrophe.''
    I agree with your diagnosis, Madam Chairman, but recommend a 
different cure. Every symptom you described would be addressed by 
removing FEMA from DHS and restoring it to its previous position as an 
independent cabinet level agency.
    I look forward to hearing from today's witnesses--although I am 
disturbed that the Committee did not provide a witness who believes 
FEMA should be restored to its previous structure as an independent 
agency. I think a more balanced panel of witnesses would give us a more 
effective hearing.
    Thank you again, Madam Chairman, for holding this important 
hearing.

    Senator Lautenberg. I sit her somewhat amazed by the 
process. There is no doubt about where I stand. I think FEMA 
ought to stand alone. I think the events of the past confirm 
that. But I do not see any witnesses that are going to offer 
that opinion. And that concerns me because we ought to have the 
other point of view.
    I would hope that we will have a witness panel that 
advocates the separation of FEMA from DHS, as does Senator 
Lott, as do I, as does Senator Mikulski, and several other 
people who have opinions that ought to be considered.
    Second, this criticism of FEMA is unjust, unfair, and I 
look back at a time when the terrible catastrophe struck 
Oklahoma City and a fellow named Tom Feverborne, Director of 
Oklahoma Civil Emergency Management Department, cited events in 
``The FEMA Phoenix.'' I will include this article in the 
record.\1\
---------------------------------------------------------------------------
    \1\ The artile submitted by Senator Lautenberg appears in the 
Appendix on page 97.
---------------------------------------------------------------------------
    This report was issued in 1995, so it was close to the time 
of the tragedy there. Mr. Feverborne says it was 9:02 a.m. when 
a truck bomb ripped through the Alfred Murrah Federal Office 
Building in downtown Oklahoma City. At 9:30, he placed a call 
to FEMA headquarters. At 2:05, FEMA's advance team arrived, 
complete with damage assessors, etc. Mr. Witt himself arrived 
to be briefed. There is other indications of a pretty good 
operation.
    So, to disparage it here, I find contrary to the truth.
    And you cannot get there by condemning FEMA's past when we 
saw what happened with Hurricane Katrina. I heard the Senator 
from Minnesota talk about the Time poll that said that FEMA was 
held in significant disregard.
    Contrasting that, I am going to ask the question as to 
whether or not DHS is held in high regard? I do not think so. 
And what we saw was a bureaucracy at its worst. Finger-pointing 
became the single result of that event. It was Michael Brown, 
it was this one, it was that one, it was not a fast enough 
response, I must say, from the Secretary's office.
    And I must say, the Secretary is someone I know and trust 
very well. But the job is enormous. And in response to the fact 
that people make the difference--yes, people make the 
difference. But so does organizational structure. No matter how 
good the people are, if they are not in a situation where they 
can apply their skills and talents and the facilities are not 
there, it is not going to work.
    So I would hope that we are going to have a chance to hear 
another view of this. I respect Senator Collins and Senator 
Lieberman for the work that they have done on this. I just do 
not think it is a simple issue, and I do not think it ought to 
be dismissed with a single hearing. Thank you.
    Chairman Collins. Senator Coburn.

              OPENING STATEMENT OF SENATOR COBURN

    Senator Coburn. Thank you, Madam Chairman.
    One of the things that you noted in your opening statement, 
I think, needs to be reemphasized. When we look at FEMA and we 
look at the Department of Homeland Security (DHS), one of the 
agencies that they depend on more than any other is the Corps 
of Engineers. And if it is not totally reformed, from top down 
and bottom up, totally changed, we are going to get the same 
responses. Because those are the legs in the field. Those are 
the people that are spending the money. Those are the people 
that are contracting.
    Our Subcommittee has held hearings on this, and what we saw 
was incompetence at the level of the Corps that we are now 
blaming on FEMA and we are now blaming on DHS. I believe, Mr. 
Secretary, you ought to get another contractor because I think 
that one is inefficient and broken. We ought to be talking 
about how we can reform the Corps of Engineers.
    I also would remind by fellow Senators that Senator Carper 
and I have now held 37 hearings on Federal financial management 
oversight. And if we are really concerned about getting more 
money for this mission of homeland security and FEMA, then you 
need to be helping to also eliminate the $160 billion worth of 
overpayments that the government makes, another $200 billion of 
waste, fraud, and abuse that we have discovered, rather than 
ignoring that as we go through the Senate appropriations cycle 
and saying we have got to spend more money.
    The fact is that there is plenty of money because there is 
plenty of waste, fraud, and abuse in the Federal Government.
    The final point that I would make is performance 
benchmarks, a key management tool, is missing in many areas of 
the Federal Government. I think you can have a rotten 
structure, but if you are holding people accountable to 
performance benchmarks and you have got an effective 
management, you can make things work.
    So I hope whatever we do, and I have some concerns with 
your legislation, but I am not totally against it. But I think 
if you do not put into it performance benchmarks that truly say 
here is the measurement, here is how we are going to hold you 
accountable. If you do not meet this then we are going to take 
action. And do that not only at FEMA but at DHS throughout. And 
I think we should give the Secretary the opportunity to 
implement some of those type of performance benchmarks that he 
is now implementing.
    So the area is of great concern. I appreciate the work and 
all of the work that the staff has done in looking at the 
results.
    But I would also associate with Senator Voinovich. I do not 
think anybody could have been prepared for Hurricane Katrina. 
We could have done a better job. But this is a massive disaster 
we have never experienced. We are going to be better prepared 
next time, but it is not going to go perfect because it cannot 
on something of that scale.
    And to be hypercritical of the management when we have 
something that we have never encountered before, where we ought 
to be critical is, did we learn from the mistakes that have 
been made? And should we change management structure and 
performance as much as we change organizational structure?
    With that, I have to be at another hearing, and I 
apologize. The Judiciary Committee is having a markup right 
now. But I thank you for the time.
    Chairman Collins. Thank you.
    Our first witness today is the Secretary of the Department 
of Homeland Security, Michael Chertoff. We thank you for 
joining us, and I ask that you proceed with your statement.

    TESTIMONY OF HON. MICHAEL CHERTOFF,\1\ SECRETARY, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Secretary Chertoff. Thank you, Chairman Collins and Ranking 
Member Lieberman, and other Members of the Committee.
---------------------------------------------------------------------------
    \1\ The prepared statement of Secretary Chertoff appears in the 
Appendix on page 64.
---------------------------------------------------------------------------
    I request, first of all, that the totality of my written 
statement be placed into the record.
    Chairman Collins. Without objection.
    Secretary Chertoff. I just want to speak very briefly, and 
then obviously I will be pleased to answer questions.
    I am in agreement with a very large percentage of what has 
been expressed here today about what we need to do to go 
forward. There are obviously some specifics and details I will 
want to discuss further, but I have no doubt of the wisdom of 
the original plan to have FEMA and the response capability of 
the government integrated into DHS. I think to the extent we 
had a structural problem last year, it was frankly the fact 
that we had not completed the job of integration.
    In fact, I observed as much myself in July, after I looked 
at the Department the first few months I was here. And 
regrettably, the hurricane came before we had a chance to 
really push along the issue of integration to where it should 
be.
    A number of the specific proposals that the Committee 
raised in what was a very thoughtful and comprehensive report, 
and was the product of what I think was an almost model 
investigation for a very difficult topic, are things we have 
already put into process or are actually completed.
    For example, we have strengthened regional offices. We have 
adopted the policy that we need to be introducing the people 
and training and exercising the people who will be part of the 
Federal response with their State and local counterparts well 
before the storm starts to hit 75 mile an hour winds.
    We have pursued the issue of building a real capable 
leadership in FEMA. We have done that, first of all, by the 
President having nominated and this Congress having confirmed 
David Paulison. The Deputy Director and Chief of Operations, 
Chief Operating Officer, Admiral Johnson, is a very experienced 
operator. We have converted three of the regional directors 
into career positions, and we are anticipating that we will be 
filling those positions very shortly.
    And all of this has been designed to give us the career 
professional capabilities to run the operations that I think 
the American people and this Department deserves.
    I would like to talk a little bit about what is gained by 
integration and what would be lost by disintegration. I am 
going to try to do so without repeating the very keen 
observations Members of this Committee have already made.
    If you look at the Coast Guard, which performed admirably 
last year, you will see one significant difference in the 
leadership of that organization and their approach to DHS as 
compared with the approach taken by some of the leaders at 
FEMA. The Coast Guard embraced integration. The Coast Guard 
contributed, at the top leadership level, time and effort to 
integrating the Coast Guard with the operations of the 
Department. And that is nowhere more reflected in the 
activities of then-Commandant Admiral Collins and, of course, 
the new Commandant, Admiral Allen.
    TSA, other agencies have driven towards integration. And if 
you look at the things which succeeded last year, the Coast 
Guard, the TSA's ability to build an air bridge which got 
22,000 people out of the New Orleans area in record time. Those 
were agencies of DHS that were separate from FEMA but were 
willing to play on the team in order to be with FEMA.
    One of the things which this Committee uncovered during the 
course of its investigation was that, at least in the minds of 
some leaders or at least one leader at FEMA, there was a 
resistance to integration and a desire not to integrate. And I 
think the conclusion I draw is that was a serious error in 
judgment and handicapped FEMA's ability to leverage the 
capabilities of the whole Department at a time that we needed 
that the most.
    This year we are continuing to exploit the benefits of 
integration. And let me be really concrete about that. FEMA is 
an unusual agency in that it spends months out of the year 
doing very little except processing paperwork for disaster 
declarations. And then, when dramatic events happen, it has to 
surge into action. The problem is you cannot build a 
permanently standing large group of individuals and a large set 
of tools that are going to be idle 8 or 9 months out of the 
year and active 3 months out of the year.
    What we bring to the table is this. All of the tools we use 
every year, P-3 aircraft that are used by Customs and Border 
Protection, helicopters used by the Customs and Border 
Protection air wing and used by the Coast Guard, communications 
equipment which we actually deploy 365 days a year. All of that 
comes into play when we train, when we exercise, and when we 
deploy in an emergency to support FEMA.
    Without the ability to have these units bound together in a 
single department year round, what would happen with an 
independent FEMA is exactly what we have said we do not like. 
The operators would introduce themselves as the storm was 
approaching, and they would then learn how to work together.
    I think what we have developed in DHS and what we are 
building upon is a style of integration which will allow people 
to pursue their ordinary missions day in and day out, keep 
sharp, keep their tools ready. And then, when they are required 
to step forward in the breach, when we face a catastrophe, to 
be ready to do so with a set of partners that they know very 
well, that they have trained with, and that they have exercised 
with.
    By contrast, I have to say that we do tend to look back on 
the old days with some rose colored glasses. This is not meant 
to denigrate the fine work that FEMA did in the 1980s and 1990s 
in a whole set of disasters. But the fact of the matter is you 
simply cannot compare any challenge that FEMA faced in the 
1990s with what was faced in Hurricane Katrina. And to say that 
somehow the difference in response is indicative of the fact 
that we were better prepared when FEMA was independent is like 
comparing the statistics of a minor-league ball club with their 
performance when you call them up one day and say go play in 
the World Series against the New York Yankees. It is not an 
accurate comparison.
    Let me look back on Hurricane Floyd, which was a 1999 
event. I can tell you, by any measure, Hurricane Floyd was 
about one-tenth of the magnitude of the disaster of Hurricane 
Katrina. One-tenth in terms of affected people, actually even 
less than one-tenth. One-tenth in terms of registration, one-
tenth in terms of damage.
    And then let me read you the comments that were made in the 
year 2000, and see if they sound familiar. A town manager in 
South Carolina who described FEMA's performance as ``The 
disaster after the disaster after the disaster. It offers 
convincing evidence that the Agency still has not cleaned all 
the bureaucratic jackasses from its stables.''
    Or a GAO report in the year 2000, looking back on Hurricane 
Floyd, which said ``FEMA has suffered from chronic financial 
management problems, including a faulty method for projecting 
future disaster costs and a long-standing backlog of unfinished 
disaster recovery projects.''
    As I think many of you have observed, what you need to do 
at this point and what we are actually doing is the hard, not 
particularly glamorous work of actually building plans and 
capabilities in a way that has never been done before. That is 
why, for the first time, we have a computer model that will 
show us in real time where the trailer loads of commodities are 
positioned on the highways, headed from the warehouse to their 
ultimate destination. So we can plan and deploy these 
commodities effectively.
    That is why, for the first time, we have people who are 
trained and equipped to go into shelters with wireless laptops 
to register people when they show up on the scene. That is why 
we have communications equipment that is not merely additional 
tools given to FEMA, but that actually leverages the aircraft 
and the communications tools that we use every single day at 
Customs and Border Protection and Coast Guard and all of our 
other agencies.
    Now above and beyond all of that, of course, as Senator 
Coleman said, is the issue of confidence. There is no question 
that the proof of the pudding here is going to have to be in 
the eating. We have trained, we have exercised. I am not going 
to tell you that all the work is done, but I will tell you that 
a lot of work has been done.
    One thing I have been very insistent upon is building, for 
the first time, a set of metrics that gives the top leadership 
of FEMA and DHS real insight into how we are performing on all 
of the important measures of what we need to do.
    We are keenly aware of the fact that this year we have to 
look sharp and we have to act sharp. That is one of the reasons 
I have spent a considerable amount of personal time in going 
around the country, working with governors and emergency 
managers to make sure that we are tightly bound together in a 
national response. Not a Federal response but, as Senator 
Carper said, one that leverages on the still primary 
responsibility of State and local governments to manage 
disasters.
    Let me finally, because we have talked a little bit about 
the issue of funding, just spend one minute addressing that. I 
think Senator Lieberman is correct that we do have disagreement 
on all sides about this. But I suspect the disagreement 
reflects radically different views. If you listen to people in 
certain cities, they will say almost all of the money ought to 
surge to a few large cities. I think people in smaller cities 
may be disappointed that they got less money.
    We have a pie chart, I would like to put up for one second, 
which I think will illustrate where we are.\1\ And then, 
recognizing that this is a discussion at greater length on 
another day, I will say that there is kind of a philosophical 
issue we have to address. This year's grants put roughly one-
half of the total amount of money in five cities. In fact, New 
York, which got $124 million, the largest amount, if you look 
at the New York Metropolitan area, which includes Newark and 
Jersey City, as I certainly know and I know Senator Lautenberg 
knows, we have almost $160 million in one major metropolitan 
area.
---------------------------------------------------------------------------
    \1\ The chart referenced by Secretary Chertoff appears in the 
Appendix on page 108.
---------------------------------------------------------------------------
    That recognizes the flow of threats that focuses on that 
particular area and comes close to being a quarter of the total 
amount of money in one major metropolitan area.
    Now I know there are some people in New York who do not 
think that is enough. But I direct your attention to the other 
half, the half of the total money that went to 41 other urban 
areas. If we cut that money by a lot, if we put even more on 
the right side of that pie chart, you would have so little 
money going to those other urban areas that it would scarcely 
be worth putting the money in there.
    And while I am the first person to say that New York and 
Washington face unique threats, I cannot tell you that they are 
the only cities that face threats. And I think, as Senator 
Coleman said, you look at what happened up in Canada, you look 
at the fact that we have arrested and convicted people in 
Sacramento, in Portland, in Washington, in other parts of the 
country, we need to make sure that even as we are putting the 
money where the threats are the greatest, we are building 
capabilities across the board and doing it in an accountable 
fashion.
    So there are some serious debates to be had here. I will 
leave you with one thought on this issue of should we put all 
of the money where we suffered the attacks in 2001? I want to 
emphasize I still agree that is the place we need to put an 
awful lot of money.
    But if all we do is protect what was attacked before, then 
we are going to repeat a famous historical mistake. In the 
1930s and 1920s, the French looked back on World War I, and 
they built a beautiful array of fortifications called the 
Maginot line. And they said this time we are going to deal with 
the threat of the Germans by building these forts.
    What happened in 1940 was in 30 days the Germans went 
around the forts and conquered France. Nobody has ever looked 
back on those generals and said they did a great job building 
the Maginot line.
    I do not want to build a Maginot line. I want to have a lot 
of fortifications in New York, New Jersey, and Washington. But 
I want to make sure we have fortification where it needs to be 
in other parts of the country.
    Thank you, and I look forward to answering questions.
    Chairman Collins. Thank you, Mr. Secretary.
    Mr. Secretary, pulling FEMA out of the Department of 
Homeland Security is not nearly as simple as the proponents of 
that idea would have us believe. One critical question is if 
you take FEMA out of the Department, what comes with it?
    Well, if you look at one of the leading House bills that 
would extract FEMA from the Department, it would also take 
virtually all of the components of the Preparedness 
Directorate. That means that DHS would no longer have terrorism 
preparedness grants, such as the ones that you have just 
referred to, training exercise and infrastructure protection 
assets, the national communications system, and the Chief 
Medical Officer. All of those assets and personnel would be 
taken away from the Department.
    In other words, what some House members are proposing is to 
take away the Department's ability to prepare for disasters, to 
protect critical infrastructure, to respond with medical teams, 
and to establish a secure communication system.
    What would be the effect of taking all of those assets away 
from the Department?
    Secretary Chertoff. The short answer is that would be to 
restore the very kind of stovepiping that we have tried very 
hard to eliminate from the government since September 11. We 
would have two choices. Either we would have to rebuild a lot 
of these capabilities to make sure we could plan and execute in 
a coordinated fashion with a terrorist attack. Or we would 
create a schizophrenic Homeland Security Department. The 
remainder of DHS would prepare to prevent an attack. But once 
an attack happened, we would simply be out of action, and FEMA 
would now have to respond to the attack.
    But it would even be worse than that. Because if we had a 
terrorist incident or an ambiguous incident, you would have to 
simultaneously continue to make sure you were preventing 
further attacks while responding to the old attacks. So we 
would have literally two competing agencies managing the 
incident in an uncoordinated fashion.
    And that is even before we get to the fact that we would 
have two separate grant programs, each operating in different 
directions. We would have, with respect to our Chief Medical 
Officer, some medical things we would have to pursue in terms 
of prevention of, for example, pandemics at the border, and a 
whole separate set of tasks, again, radically disconnected.
    It seems to me that to do this would have a huge budget 
impact, would invite precisely the kind of multiplication of 
bureaucratic obstacles that were a problem last time, and would 
utterly defeat the entire thrust of what we have done, not only 
in DHS, but in the intelligence community and everywhere else 
since September 11.
    Let me leave you with one final point. A lot of what we do 
with response and preparing for response is intelligence 
driven. The whole way we think about, for example, what we 
would need to do with a medical terrorist attack, a 
bioterrorist attack, or a chemical attack and infrastructure 
protection is actually driven by intelligence. So we would also 
have to now create a new intelligence agency that would service 
this new department as well as, of course, continuing our old 
intelligence agency.
    So I think that this illustrates the fact that once you get 
into the details, this is not a workable idea.
    Chairman Collins. I think you have just raised a very 
important point. Sometimes I think that proponents of this idea 
forget that we are living in a post-September 11 world. The 
threats are entirely different facing our country today.
    I want to follow up on a point that you made about the need 
to duplicate that capacity within the Department. Do you have 
any idea of what the cost would be of trying to replicate the 
absolutely critical functions that you would still need?
    Secretary Chertoff. I will tell you it is going to be 
counted in the billions of dollars because one of two things 
will happen. Either the FEMA that is removed will be so 
shriveled that you will have to really rebuild all of the 
pieces of the organization that we provide. Or you would take 
out elements of preparedness that we would then have to 
rebuild.
    And even then you would still have to ask yourself, where 
is the new FEMA going to get the planes and the helicopters 
that it is going to need? It can mission assign them, but that 
is going to be a lot slower than the way we work now. Or it is 
going to have to acquire those, too. I think that in this 
budget environment, that would be very difficult.
    Chairman Collins. Some of the House members who are 
proposing that FEMA be taken out of the Department issued a 
press release last night based on an alleged copy of your 
testimony. The point that is made in this press release, among 
others, in response to the arguments that we have made about 
keeping those functions within DHS, the two House members say 
that on the theory that all essential efforts of national 
response must be within DHS to function, half of Health and 
Human Services and large chunks of the Defense Department 
should be moved into DHS, as well.
    Now obviously they are not advocating that, but they are 
trying to make a rather strange argument. But I want to give 
you the opportunity to respond to that.
    Secretary Chertoff. First of all, I have not read the press 
release, but I believe that the quotations in the press release 
come from a draft of testimony that I actually threw out and 
that bears not that much resemblance to the current draft. 
Obviously, they both begin with my name is Michael Chertoff, 
but then they radically diverge.
    I think that argument is an example of people who argue 
that the perfect is the enemy of the good. Yes, it is true, 
even in our current structure, we do work with HHS and DOD 
because they supply some assets that we do not have. But to 
further fragment it and say that means let us break it up even 
more makes no sense to me. It suggests that because there is 
always a line-drawing problem and we always have to have 
somebody on one side of the line and someone on the other side 
of the line, we should draw more lines and stovepipes seems to 
be just completely illogical.
    Chairman Collins. Thank you. Senator Lieberman.
    Senator Lieberman. Thanks, Madam Chairman.
    Secretary Chertoff, I was taken with your comparison of the 
Coast Guard and how well it performed during Hurricane Katrina 
to FEMA and how badly it performed. And it is true, as our 
investigation found out, that for a host of reasons, 
structural, personal, psychological, or whatever, in some way 
FEMA was functioning as an independent agency. In some strange 
ways, because of the attitude of its director, we got a look at 
what--maybe not a fair look--but a look at what might happen if 
FEMA functioned outside of DHS as an independent agency. And to 
put it mildly, it was not a pretty picture.
    I do want to ask you to comment on one part of this. I have 
a recollection that the first meeting that Chairman Collins and 
I held with anybody involved in Hurricane Katrina was very 
early on. It was a closed meeting, and nothing really 
classified happened. It was with a representative--I forgot the 
Admiral's name, it was not Admiral Allen or Admiral Collins--of 
the Coast Guard and then a gentleman from FEMA. We were all 
quite impressed--it was a day or two after the hurricane--with 
the Coast Guard.
    I remember asking the Admiral from the Coast Guard, before 
you redeployed your personnel and equipment outside of the 
immediate target, did you get authority from the Secretary of 
Homeland Security or from the President as commander-in-chief? 
The answer was no.
    Before you went into action within an hour or two of the 
landfall occurring to save people's lives, did you get 
authority from or permission from the Secretary of Homeland 
Security or the commander-in-chief? No.
    The answer was Senators, this is what we do. We just did 
it.
    I wanted to convey that to you and ask you then to set your 
comment--I do not mean it denies the truth of your comment, but 
I want you to set that comment or that story within your 
comment about the Coast Guard being integrated. Because 
ultimately, this is a combination, is it not, of integration, 
preparation, and the readiness to take whatever action is 
necessary without going through a lot of bureaucratic hoops.
    Secretary Chertoff. I think this is indicative of the 
philosophy that I personally have about how the Department 
should run, and I think almost everybody in the Department, 
almost everybody, believed at the time. It is a combination of 
integration but also pushing the authority down.
    In the ideal world, and the Coast Guard really kind of 
comes close to the ideal, you want to be integrated in the 
sense that every operator has full access to all of the tools. 
But you want to push the authority down.
    And my philosophy with the Commandant of the Coast Guard 
was and remains, you understand what the mission is. You have 
the tools to do the mission. Execute the mission. If there is a 
problem that you are having executing the mission, you are not 
getting something you need, I will be there and make sure it 
happens for you.
    It is emphatically not to say you should be clearing all of 
these things through me. In fact, an operator who wanted to 
clear things through me, I think, would not be doing a good 
job.
    On the other hand, when the job is not getting done, the 
operator does have to come to the Department and say give me 
the help, bring me all of the tools. What you cannot do is 
simply say I am going to go ahead and continue not to get the 
job done because I do not want to ask anybody else for help. 
That is what I call a lone ranger mentality.
    I think a classic example, and it is one of those rare 
instances where you can almost prove a fact, and I do not want 
to embarrass Admiral Allen because he is sitting here, but we 
actually tried both methods in Hurricane Katrina. We had a week 
of someone whose attitude was let me alone and I am not going 
to let you know if I have a problem. And then we had somebody 
who was empowered to act alone but also understood that when 
there was a need for something else to come into play you do 
not just try to do it yourself, you come back to the Department 
and you leverage the assets.
    The first week was the go it alone model. The second week 
was the push the authority down but stay integrated model. And 
I do not think anybody would say that the first week was better 
than the second week.
    So I think we have demonstrated this idea of a stand-alone, 
go-it-alone FEMA would bring us back to precisely that which 
failed last year.
    Senator Lieberman. Thank you.
    I am going to ask Admiral Allen, when he testifies, about 
the ways in which integration in the Department has assisted 
the Coast Guard to perform its mission.
    Let me ask you this final question in the time I have left. 
As you know, in the new national preparedness authority, which 
Chairman Collins and I would create, we have returned the 
preparedness function and joined it with response. We have also 
brought back, or brought in, the capacity to make grants--
through this new authority to replace FEMA--to the State and 
locals.
    Here is both the substantive and, frankly, a tactical 
question I want to pose to you. The critics who want to take 
FEMA or a successor agency out of the Department of Homeland 
Security basically say it has been marginalized within the 
Department. And that to make it strong again, you have got to 
take it out.
    One of our concerns is that if preparedness is separate and 
the grantmaking function is separate, are we not lending 
strength to that argument that within the Department it is 
marginalized and really the best way to strengthen it to what 
we need it to be is to take it out and put all of the functions 
there independently?
    Secretary Chertoff. It is a little complicated question and 
let me answer this way. I think there is no doubt about the 
fact that preparedness covers an entire spectrum of functions. 
Some part of it does involve response, but another part of it 
involves things like prevention. It involves creation of 
capabilities to fuse intelligence. Or it involves figuring out 
how to elevate the degree of protection for our infrastructure.
    In a way, we use the word preparedness in two different 
ways. There is the preparedness for the actual mission of FEMA, 
the actual mission of response. And then there is the task of 
integrating our preparedness so that all of our activities 
cover the entire spectrum.
    A classic example is take a chemical plant. When you are 
looking at preparedness for a chemical plant, you are looking 
at do we have the facilities in place to prevent an attack? 
Have we hardened the plant to protect if an attack gets 
through? And do we have a fast response that would mitigate an 
attack?
    If you have separate grant programs and separate planning 
programs, everybody is going to look at their particular task 
and they are going to plan for that task. At best that is 
wasteful. At worst, it is actually inconsistent.
    Someone has got to stand back and look at the entirety of 
the issue and say if we add more prevention, maybe we need a 
little less protection. Or if we have a mitigation response 
capability that is very fast and effective, maybe we do not 
need to put that much money into putting the fences and 
barriers up.
    I want to make sure and I want to work with you to make 
sure that FEMA and the mission of response is fully prepared 
for and fully resourced. But I also want to make sure that we 
have the capacity in the Department to stand back and look at 
preparedness not only from the standpoint of the responder but 
from the standpoint of the preventer and the protector.
    I realize this mirrors to some degree a debate you will 
find in cities across the country where mayors struggle between 
fire chiefs and police chiefs who are struggling for dominance 
over the issue of preparedness. Our approach is to have a 
neutral broker and an integrator but make sure that in 
developing our overall strategy and our grant program the 
substantive expertise is not just FEMA's but the Coast Guard's 
when we are dealing with ports, the Border Patrol when we are 
dealing with border States, the medical officer when we are 
dealing with health issues.
    I think we want to get very much in the same place, and I 
just want to make sure we do not make the error of spending so 
much time looking at Hurricane Katrina that we do not look at 
all of the other kinds of things we have to worry about.
    Senator Lieberman. I hear you. I understand the point you 
are making.
    I am unconvinced on the larger point. I continue to feel, 
as Chairman Collins and I have proposed, that FEMA or whatever 
we call it will be stronger if we unite the functions. We can 
still achieve some of the perspective that you are talking 
about. But practically here in Congress, unless we make it as 
strong as possible within the Department, then there will be a 
tendency to do what I think is self-evidently not sensible and 
counterproductive, which is to take FEMA out and make it an 
independent agency again. And then it will just be duplicative 
and, frankly, less effective.
    So I appreciate the attitude that you are bringing to this, 
in addition to the arguments, and I look forward to working 
with you to see if we can reach common ground.
    Secretary Chertoff. I think we do want to get to the same 
place. I think we are basically in an area where, as we work 
through the details, I am confident we can find a lot to agree 
upon.
    Senator Lieberman. Thank you.
    Chairman Collins. Mr. Secretary, we have a vote on, which 
is why you have seen this mass exodus of Members. However, the 
remaining Members are eager to ask their questions of you. So I 
ask that you stay.
    We will take a brief recess.
    When Senator Voinovich comes back, he is going to resume 
the hearing in my absence, and I will return as soon as 
possible.
    Thank you.
    [Recess.]
    Senator Voinovich [presiding]. The hearing will come to 
order.
    The Chairman has asked me to continue with the questioning 
so we can move on to the other panels.
    Secretary Chertoff, what I think most Americans are not 
aware of is that you have taken over a massive bureaucratic 
reorganization, merging 22 agencies and 180,000 employees into 
one department. We are focusing here today on FEMA and its 
relationship with the Department.
    I would be interested in hearing from you as to what things 
we can do to help you get your job done. Specifically, is there 
legislation that you think we need to pass before the year is 
up? Are there some things in terms of the budget that we should 
be looking at that are of concern to you? And are there some 
efforts that we can make with certain people in the 
Administration to try to bring to their attention how important 
some of these things are so you can get your job done?
    So I would like to hear, how can we help you?
    Secretary Chertoff. I appreciate, Senator, your asking that 
question. And let me begin by saying, as you observed, this is 
the largest reorganization since the Defense Department. That, 
of course, is generally viewed as having taken about 40 years 
to get right in Goldwater-Nickels. We are not going to take 40 
years to get this right. In fact, I think we have made a lot of 
progress, but I do not think we should underestimate the 
challenge we face.
    Senator Voinovich. Let me just interrupt you one minute. 
That was the merger of all of the Department of Defense 
agencies.
    Secretary Chertoff. Correct.
    Senator Voinovich. Where they all previously had some 
things in common with each other.
    Secretary Chertoff. And they were all fully formed and had 
worked together for decades, including throughout the Second 
World War.
    Senator Voinovich. And you have had 22 agencies that have 
different cultures and so forth that have built up over the 
years, and somehow you have had to try to get them together.
    Secretary Chertoff. Correct, including agencies that did 
not come over whole cloth and some that were fabricated from 
new. So this is not by way of an alibi or an excuse, but it is 
a frank recognition of the fact this is a challenge.
    I would say there are three things that would be helpful. 
First of all, calling a halt to significant reorganization 
would be a big help. Even if people disagreed with the original 
impulse to put FEMA into DHS, I think the cost of removing it 
and reconstituting the Agency--and I do not just mean the 
financial cost, I mean the cost in morale and in continuity of 
operation is enormous.
    That is not to say that there is not always room to make 
some adjustments internally in order to make ourselves more 
efficient. In fact, I proposed doing----
    Senator Voinovich. If I could interrupt you, how about 
recruiting people? Has discussion of reorganization hurt your 
recruitment efforts at DHS?
    Secretary Chertoff. I was about to say, among other things, 
a lot of the complaints we get are you have not filled spots 
up. And yet it is very difficult to fill spots up when people 
have no idea whether they are going to wind up being ripped out 
of the agency they are joining in a year.
    In fact, I would argue that one of the problems we had in 
integrating FEMA goes back several years when there was a 
struggle from the very beginning of the Department, in which 
some people bitterly resisted the merger and continued to hold 
out the hope that the merger would be undone. And that itself 
created an organizational and a management program.
    There comes a time you have to say, even for those who 
disagreed with the original impulse, we have to make this work. 
And the constant organizational upheaval is totally 
counterproductive.
    The two other things I would mention are one, of course, in 
terms of funding. We are very grateful for the supplemental, 
which has worked its way through Congress. I think that is 
going to be enormously helpful, not only in terms of what we 
are doing at FEMA but in terms of what we are doing at the 
border, which remains of course a matter of great concern to 
the whole country.
    And third, I think as the Committee looks at some of the 
proposals on the Stafford Act, we find ourselves often 
wrestling with categories of funding and assistance that may 
make sense in the context of an ordinary disaster but really 
tie our hands when we are dealing with the kind of emergency 
like Hurricane Katrina.
    And understandably people ask the question, for example, 
why are we unable to fund housing that is more permanent and we 
are forced to use trailers that are, as some people described, 
tumbleweeds when another hurricane comes along? And that is 
largely driven by the fact that we have to categorize and we 
are restricted by the Stafford Act in terms of what kind of 
things we can fund.
    So I know this Committee has within its proposals some 
ideas for changing the Stafford Act, and I think those are 
areas which would be helpful to us going forward.
    Senator Voinovich. Do you think there is an urgency to the 
Stafford Act revisions, something we ought to just put on the 
top of the list and move forward with it?
    Secretary Chertoff. I do think so. I think things we can 
do, even for this season, that would give us greater 
flexibility in our ability to deliver assistance to people in 
the way that matches what their actual needs are, as opposed to 
what the pre-existing categories are, that is the kind of thing 
that would, I think, make life easier for people this coming 
season.
    Senator Voinovich. Can I ask you, why have you not put more 
money in for EMPG? I mean, I got a little bit more money 
appropriated for EMPG last year, and I am attempting to 
increase the EMPG appropriation this year as well. The States 
need this money to improve their emergency planning and 
operations. They do not have the capacity to do it currently.
    Secretary Chertoff. We have, and I have to say I did not 
come with the full background with me today. We have invested a 
lot in emergency management planning over the last several 
years. We have also put a lot of in-kind resources in, meaning 
we have put teams out there to work with State and local 
officials to leverage the tools that they have in terms of 
planning.
    Part of the theory is to increasingly put more of the funds 
into capacity building through things like Homeland Security 
grants and UASI grants, and then have those available and have 
planning available as a stream of activity that would be funded 
under those grants.
    Now again as we move into the next budget year, I am always 
willing to look to see if there is some adjustment we should do 
in the program. If it turns out that this is not doing the 
trick, then I am happy to take a look and see whether we need 
to do something more.
    Senator Voinovich. I can tell you, I am going to try and 
increase those EMPG funds again. In my State--and we have a 
darned good emergency management system in Ohio, I think you 
will recognize that. But that is the biggest complaint that I 
have from our people in Ohio, that we do not have the resources 
to fund full-time emergency planners that get up early in the 
morning and go to bed late at night doing the planning and 
coordinating.
    And there is some terrific progress going on in the States. 
I have never seen local government officials work together as 
they have today. But they need additional resources to get the 
job done.
    And I would really urge you to look at this issue again and 
talk to some of your people who coordinate with the States. 
Because you know what? If we do get another hurricane like 
Katrina, you are going to be having to ask those State folks to 
come and help you.
    Secretary Chertoff. That is right.
    Senator Voinovich. So I would really appreciate your 
looking into that.
    Another question that is off topic. We are passing this 
border legislation and immigration reform and so forth in the 
Senate. I think it is important that you candidly share with 
Congress what you are being asked to do and whether the funding 
is there to get the job done. Because the problem we have today 
in America with illegal immigrants coming here is we never 
previously gave the agencies charged with immigration 
enforcement and border security the resources to get the job 
done.
    In this last supplemental, no money for drones, no money 
for helicopters, no money for things that I think you need to 
secure the border. And you, I think, have a moral 
responsibility to let us know what you need in order to secure 
the border.
    Secretary Chertoff. I will say we have, in the 2007 budget, 
money for what we call SBI-Net. And that is really the 
technological piece to the border strategy. And that absolutely 
does envision that we are going to have not only ground 
technology but unmanned aerial vehicles.
    In fact, I think with this supplemental, we are envisioning 
that we would have the funding for four UAVs eventually to help 
us cover the border. So I am very mindful of the fact that the 
aerial vehicles, while not a total solution, are a very helpful 
ingredient in the total program.
    Senator Voinovich. My time is up. Senator Coleman.
    Senator Coleman. Thank you.
    And I am glad to hear of your support of the unmanned 
aerial vehicle because I had a chance to go down to Arizona and 
watch the prototype. I thought the budget just had funding for 
one, but if you are saying that there is money available in a 
different pot of funding?
    Secretary Chertoff. I think we have two--if I recall 
correctly, I think we have--of course, one crashed, and we have 
to get it back. I think it is under warranty. The second one is 
supposed to come online this summer. And then I believe we have 
built into the budget, in the supplemental, money for two more.
    Senator Coleman. Again, just part of the solution.
    A couple of observations, one just about the funding issue. 
By the way, your statement was very strong, and you are 
absolutely right, you do not win a war by fighting yesterday's 
battle.
    But for me the issue is consistency. I do not know what it 
is going to take to get there. We kind of go up and down, and 
it is very hard for folks at the local level to plan. We will 
get there, but I think your statement was a very strong opening 
statement, and it certainly moved me.
    Talking about morale, and you talked about the hard-to-fill 
spots if people do not know if they are going to be ripped out. 
I presume it has got to be hard to--I am not presuming here.
    What has been the impact in terms of morale and the impact 
in terms of recruitment on the hits that FEMA has taken?
    Secretary Chertoff. First, let me correct something I said 
yesterday at a press conference because I misspoke. I was 
quoted as saying, and I think I probably did say, that we were 
going to be between 90 and 95 percent filled by the end of the 
year. I meant to say by the end of the month, by the end of 
June. So we are making a lot of progress.
    I will tell you it has pained me a lot over the last few 
months to hear FEMA being ridiculed. From my own personal 
observations, as well as what I have heard from others, the 
lion's share of the people at FEMA did a magnificent job. I 
mean, there were people who were hunkered down in the Superdome 
who were literally working 24/7, who were away from their 
families for months. And I feel that where FEMA failed it was 
largely because the people were failed by the tools that they 
had been given or the tools they had not been given.
    Clearly to the extent that we continue to treat FEMA as a 
joke or treat the issue as a problem with the people in the 
Agency, it has a devastating impact on morale. We have had 
people leaving the Agency, people retiring. Part of it is they 
are exhausted, and that is understandable. Part of it is I can 
sympathize with someone who, given the opportunity to put their 
skills into the private sector and be rewarded and admired, 
feels badly about the issue of being part of an agency that is 
now criticized for things that I think, as Senator Coburn 
indicated, sometimes have nothing do with even DHS. They may 
have to do with the Army Corps of Engineers.
    I understand there is some discussion in the legislation 
about renaming FEMA. I will tell you that for historical 
purpose, that was originally the plan in the legislation, to 
take that name FEMA out of DHS. It had bitter resistance from 
within the people who believed in FEMA.
    And I think the answer here is not to necessarily change 
the name but to change the reality. Because I think when the 
reality changes, then the name will come to stand for what I 
believe the people in the Agency deserve, which is a very hard-
working agency with a small number of people doing a very big 
job.
    Senator Coleman. In addition to people being failed by the 
tools, they are also failed by the leadership. And I raised 
this with you before when you were before the Committee. I 
would have fired Michael Brown a lot sooner. If he was not 
returning my calls and I was the Secretary in the midst of the 
greatest natural disaster this country has experienced, I would 
have been on his case a lot sooner.
    And so I do hope and I know that you bring a lot of thought 
to this job and what is required of your own leadership. But 
leadership is critical. And I agree with your call for a halt 
to significant reorganization.
    Secretary Chertoff. I am delighted to say that this time we 
go into battle with a team that I have been able to pick and a 
team that I am comfortable with. Of course, we have all learned 
some tough lessons from last year. I think lessons learned have 
real value because they change the way we proceed in the 
future.
    Senator Coleman. That is helpful.
    I talked about confidence. And one of my concerns about 
confidence is that it will also impact the way people respond 
to the next call from FEMA. That perhaps there will be a 
hesitancy to be as responsive to directives from FEMA if you do 
not trust the Agency. Do you take that into account in your 
preparedness?
    Secretary Chertoff. We do. One of the principal reasons we 
thought it was important to send people down into the hurricane 
areas and other areas that are preparing well in advance was to 
establish the personal connections that actually lead to people 
being responsive.
    I go back in my own experience when I was doing law-
enforcement. An awful lot of stuff got done in law enforcement 
not because there were written plans and agreements, but 
because people knew each other, you could pick up the phone and 
you had confidence in the person on the other end of the line.
    We missed an opportunity historically to do that by 
bringing PFOs or FCOs in who had never dealt with the State and 
local people, and so everybody had to get acquainted. So that 
is one big area we are trying to build confidence in.
    The other thing, quite honestly, is transparency. I think 
we really have to level with the American people about what 
their responsibility is. And that means the expectation that in 
a major disaster, help is going to come in 6 hours is not 
realistic. People are going to have to be prepared to sustain 
themselves for some period of time. They are going to have to 
listen when they are told to evacuate.
    If we do not treat the American people like adults and ask 
them to take responsibility, then we have ourselves to blame 
when they turn on us and they get disappointed.
    Senator Coleman. I concur with that assessment. Experience 
is a great teacher if we are willing to learn from experience. 
My sense here, Mr. Secretary, is that we have certainly learned 
a lot. And hopefully we will see that as the next hurricane 
season approaches.
    Thank you, Madam Chairman.
    Chairman Collins [presiding]. Thank you. And thank you, 
Senator Voinovich, for taking over the gavel.
    Senator Lautenberg is on his way back and does want to 
question you. So while we are waiting for him, I will ask you a 
question following up on a point that I understand Senator 
Voinovich raised and in which, in response, you said that there 
should be a halt on further major reorganizations of DHS.
    The Homeland Security Council at the White House, as part 
of its report, proposed reorganizations within the Department. 
For example, the Council proposed creating two new assistant 
secretaries to ``integrate and synchronize preparedness and 
response functions.''
    It seemed to be getting at the same point that we have 
recommended, which is preparedness and response should be 
combined once again. Under the structure that we are proposing, 
integration between preparedness and response assets would be 
virtually assured because you are co-locating them.
    Now I understand that the White House has a slightly 
different version of that, but it nevertheless is a 
reorganization of assets within the Department. So I want to 
clarify the response that you gave to Senator Voinovich. Are 
you opposing even those kinds of reorganizations?
    Secretary Chertoff. What I said to Senator Voinovich is I 
recognize that we need to make some adjustments within the 
Department. What I am principally and strongly opposed to is 
anything that involves dismembering the Department or pulling 
it out.
    Now I recognize that even within the Department there can 
be some debate about what is the right way to reconfigure. My 
general principle is we should try to do the minimum possible 
disruption in terms of how we reconfigure. I was involved, 
obviously, and made suggestions to the White House report. We 
have agreed, and we have actually adopted some internal 
reorganization, including these much more enhanced regional 
operations.
    So I do not mean to suggest I am against any 
reconfiguration or adjustment.
    What I wanted to be clear about was anything that involves 
pulling a piece of the Department out, I think we have to say 
enough is enough. The Department has now got to, as a whole, 
remain intact and integrated, and we have to do the hard work 
of making it work.
    Chairman Collins. And just to wrap this issue up, obviously 
what Senator Lieberman and I have advocated does not dismantle 
the Department, does not take pieces out and make them 
freestanding or transfer them to other departments. But it is 
the kind of internal reorganization that the White House 
Homeland Security Council also has called for.
    Secretary Chertoff. Correct.
    Chairman Collins. Senator Lautenberg.
    Senator Lautenberg. First, thank you, Madam Chairman, for 
holding this open so that we could review a couple of things 
with the Secretary.
    I do not want to put you on the defensive nor do I want to 
be, Mr. Secretary. As we review the evidence that confirms our 
point of view, I think we have to be a little careful about 
denigrating what took place with FEMA in past years. It has 
been said by several, and all of us are aware of the fact, that 
there has never been a disaster, a natural disaster, of the 
scope of Hurricane Katrina.
    So while I can be critical, and I am, of the response time, 
the fact that the President of the United States took some 2\1/
2\ days to view the damage from 30,000 feet I thought was 
shocking. To me it showed what the national interest was in 
this terrible catastrophe.
    Seeing people on the rooftops and knowing how disrupted 
life still is for so many, and still do not have a final--I 
will be crude--body count, says to me that there was a lot that 
went wrong.
    And I do not understand why FEMA, as a separate independent 
agency, could not call on the resources. Can you imagine that 
those resources, whether it was the Coast Guard or military or 
other, would be unavailable to FEMA if they called for them at 
a moment of tragedy like this?
    Secretary Chertoff. I guess what I would say, Senator, is 
this: First of all, I was not trying to denigrate FEMA in the 
1990s. I think you are dead right. They were never prepared to 
face anything like this. I think the Agency was never more than 
about 2,200 people. In fact, it went up slightly under DHS.
    I think if FEMA stood alone it would have done no better 
than and in some respects less well than it did in Hurricane 
Katrina.
    Yes, they could have mission assigned the Coast Guard, but 
that would have been, as the Chairman said, slower by hours or 
days than what happened because they would have encountered 
what they encountered when they mission assigned the Department 
of Defense. It would have taken a little while to work the 
mission out and get the troops and the helicopters there. 
Whereas, with respect to the Coast Guard, it was literally 
instantaneous.
    At a minimum, you would add a layer of bureaucracy. But 
there is another thing that would happen.
    Senator Lautenberg. I do not want to cut you short, but 
whatever you can say in a couple of words, the time clock is 
glaring at me here.
    Are you aware, you must be, that the Coast Guard was not 
too happy to be joined in to the DHS embodiment or the body? 
That they thought they operated fairly well as an independent 
agency within the Department of Transportation? Are you aware 
of that?
    Secretary Chertoff. I think I have heard; obviously I was 
not here at the time. I would be willing to bet that most of 
the agencies originally resisted going into DHS.
    Senator Lautenberg. That is fair because nobody likes to be 
suddenly moved around.
    One of the things that I propose moving FEMA to its 
original status is that I think you have an elephant-sized 
department that is really hard to manage when there are 
significantly two distinctly different missions. One anti-
terror and one in a warlike mode. One involving tons of 
intelligence. The other involving planning. The other involving 
some forecasting that is not unreasonably available.
    So I think that the mixing of the two gives you, with a 
Department of 180,000 people embracing formerly 22 agencies, 
almost an impossible task. And I admire you for your courage 
and your work and your knowledge.
    We will continue our friendship despite our difference 
here.
    Secretary Chertoff. That is for sure.
    Senator Lautenberg. I believe.
    But now, Madam Chairman, I was surprised to hear a 
discussion of that which we were not going to discuss, and that 
is the grants.
    Secretary Chertoff. Grants.
    Senator Lautenberg. I recall, Mr. Secretary, your 
statements and the statements of Tom Keane, the former 
governor, who did an outstanding job in the intelligence reform 
thing, described the best way to give grants as being risk-
based.
    Well, we lost it 15-1 in this Committee. And now I have 
heard you say, well, there are risks in other places, as well. 
Yes, there are. But I do not think they compare to a two-mile 
stretch from the Newark Airport to the harbor where the FBI 
says it is the most inviting target for the amount of damage 
that could be created in that two-mile stretch between the 
harbor and the airport, could kill as many as 12 million people 
with all the chemical production, etc., there.
    So I still fight. I am not happy with the funds that we 
received, and I hope that we will, Madam Chairman, have a 
discussion about that and a separate hearing on that issue, if 
we can do that.
    Thanks very much, Mr. Secretary.
    Chairman Collins. Thank you. Senator Carper.
    Senator Carper. Thanks, Madam Chairman.
    Mr. Secretary, thanks for bearing with us as we run and 
vote and do our other duties here.
    This has already been touched on, and I want to come back 
to it again, and I apologize if it has been asked before in a 
different way. But as you know, there is a feeling among some 
that FEMA is weak and simply because of the fact that Chief 
Paulison will be officially reporting to you as opposed to 
reporting to the President. I would just like you to take a 
minute to respond to that sentiment.
    And also to explain to us how the chain of command within 
your Department on preparedness and response issues will work, 
day-to-day, and during a disaster like Hurricane Katrina or 
like September 11.
    Secretary Chertoff. Let me address the first issue. Of 
course, when I go to see the President to talk about a matter 
relating to response or preparedness, I do not necessarily go 
by myself. I bring with me Chief Paulison and the 
Undersecretary. It should not surprise you that the President 
solicits and gets advice from the people that have the 
expertise, and that is what he wants to do.
    I think we tried the direct report method, and that was the 
first week of Hurricane Katrina when the then-Director of FEMA 
was reporting directly to the White House. We saw that did not 
work because the White House, frankly, is not equipped to be 
moving the helicopters and the aircraft. They have to execute 
through an agency. So when Admiral Allen came on board, we 
actually were much more nimble.
    Let me try to explain the chain of command. In a normal 
disaster, one that was not an incident of national 
significance, FEMA would operate pretty much in the way it has 
traditionally operated. The President, under the Stafford Act, 
appoints a Federal Coordinating Officer. That person is the 
operational head of the FEMA support mission on the ground, 
supporting the State and local responders, reports to the 
Director of FEMA and then up through that director to me and 
ultimately, of course, I report to the President.
    If we had an incident of national significance, under the 
National Response Plan a Principal Federal Officer would be 
appointed. And that person would have the responsibility to 
coordinate among all of the Federal assets that were brought 
into the area. That person would report directly to me and 
through me to the President.
    That is virtually identical to what happens in the military 
with the combatant commander where the combatant commander, and 
let us say CENTCOM, who has Iraq, reports through the Secretary 
of Defense to the President of the United States. What that 
does is it achieves within the Department unity of command. And 
then, as it relates to the other departments of government, 
which have separate command structures, there is the 
coordinating mechanism of the Principal Federal Officer. 
Everybody has signed on to the National Response Plan, and 
then, of course, we also have the State and local governments 
operate within a parallel system at their level.
    Senator Carper. Let me follow up and ask a little different 
approach on that question. The Coast Guard has gotten uniformly 
good reviews to the way they responded in Hurricane Katrina, 
FEMA not so. I know you have been asked this question before, 
but take a minute and just revisit why does the Coast Guard get 
generally very good reviews for their work and their 
responsiveness, as compared to FEMA?
    Secretary Chertoff. First of all, I think within the 
Department, the Coast Guard operates within the chain of 
command. That does not mean that we micromanage them. To the 
contrary, it means that they understand the strategic direction 
of the Department and then they execute it. And their operators 
are empowered to carry out that execution.
    But it also means that when they need help within the 
Department, they do not pussyfoot around or try to go it alone. 
They communicate either at an operational level with another 
operator or, if necessary, the commander calls me, the 
commandant calls me, and I resolve the issue, which I am 
capable of doing very quickly.
    I think what hampered FEMA, and I want to underscore what 
Senator Lautenberg said, this was, by any measure, an extremely 
challenging--just a super challenging disaster--was an 
unwillingness to recognize that there were certain things that 
were outside of FEMA's capacity to deliver. And rather than 
going to other operators or coming to me and saying can you 
give us some additional assets, which could have been done 
literally in 10 minutes, there was a desire to try to do it by 
themselves, or at least on the part of Mr. Brown who wanted to 
do it himself.
    His calls to the White House, not surprisingly, did not 
produce the results because the White House does not actually 
control or have possession of helicopters and things of that 
sort. What they will say is go contact the operators. So time 
was actually lost.
    In addition to which, it deprived me of an awareness of 
what was going on so I could simply push in myself.
    Now what I wound up actually doing, 48 hours into this, was 
recognizing that Mr. Brown was not capable of doing what needed 
to be done; we simply took pieces of this over and started to 
run them out of Washington, like the air bridge, like some of 
the things we did with the Coast Guard. That is not a very 
desirable way to do things. The Coast Guard's way of doing 
things is the model we are really applying across the board.
    Senator Carper. As we go forward and try to decide what 
changes, if any, to make to the structure of your Department in 
this regard or to FEMA, give us a point or two of things that 
we absolutely--if we do nothing else, we ought to do one or two 
things. And say what they are.
    The converse of that is if there are a couple of things we 
ought not to do, and you feel very strongly about that, tell us 
what those might be.
    Secretary Chertoff. I certainly feel in the not to do 
things is taking FEMA out, for all of the reasons we have 
explored at some length here.
    I think what we need to do is, first of all, there are some 
changes in the Stafford Act that would give us greater ability 
to tailor the assistance we need to render to people in a way 
that meets their needs.
    We had a lot of struggle with how do we house a large 
number of people in apartments and in hotels? Much of the 
struggle was about the fact that we could not pay directly 
under the Stafford Act in a way that was most accommodating to 
the localities and easiest for the people involved.
    So some flexibility in terms of the Stafford Act, I think, 
is something which will be helpful to us.
    I think the supplemental has been enormously helpful to us 
in giving us some additional tools.
    At the end of the day, what we need to do, though, is to be 
allowed the breathing space to build the metrics and build the 
capabilities which we are doing at a very fast rate of speed, 
but recognizing that procurement rules require a certain amount 
of time to elapse. We are doing much more precontracting this 
year than we have ever done before. We need to ask for some 
forbearance while we complete that process.
    Senator Carper. Thank you very much.
    Chairman Collins. Thank you, Senator.
    Mr. Secretary, thank you so much for your testimony this 
morning. You have been very patient as we have tried to 
incorporate the votes this morning. I look forward to working 
with you as we seek to ensure the implementation of the 
recommendations in our report. So thank you for being here 
today.
    Senator Lautenberg. Madam Chairman, can we ask that the 
record be kept open for questions in writing?
    Chairman Collins. I always do that at the end of every 
hearing, and this hearing will be no exception.
    Secretary Chertoff. Thank you for inviting me. I look 
forward to working with you on implementing the suggestions of 
the Committee. I think we have done a lot already. We look 
forward to doing more. And I think we are in sync on what we 
need to do here.
    Chairman Collins. Thank you.
    I would now like to call the second witness before us 
today. Coast Guard Admiral Thad Allen assumed his duties as the 
Commandant of the Coast Guard on May 25 of this year.
    I would note that this is Admiral Allen's first official 
Congressional hearing since he assumed the position of 
Commandant, and we are very pleased to have him here today.
    Many of us recognize Admiral Allen for his role as the 
Principal Federal Official in the aftermath of Hurricane 
Katrina last year. But perhaps less well known is the fact that 
Admiral Allen served as the Atlantic Area Commander during 
September 11. And he oversaw the Coast Guard's response, which 
included one of the largest boat lifts in our history of more 
than 1 million people from lower Manhattan.
    So I wanted to make sure that was part of the record as 
well, Admiral. Admiral, we are very pleased to have you in your 
new position. We thank you for stepping into the leadership 
void in the aftermath of Hurricane Katrina.
    I would ask that you proceed with your testimony.

 TESTIMONY OF ADMIRAL THAD W. ALLEN,\1\ COMMANDANT, U.S. COAST 
                             GUARD

    Admiral Allen. Thank you, Madam Chairman. I have a 
statement for the record, and I will submit that and make a few 
brief remarks if that is OK.
---------------------------------------------------------------------------
    \1\ The prepared statement of Admiral Allen appears in the Appendix 
on page 77.
---------------------------------------------------------------------------
    I would like to start out by noting where I come to the 
hearing from this morning, Madam Chairman. As you know, I was a 
Principal Federal Official for Hurricane Katrina, and I am a 
Coast Guard leader.
    The two other roles that I have played in the past that I 
think maybe bear on the discussion here this morning as we move 
forward, I have also, for the last 3 years, been the Chairman 
of the Joint Requirements Council for the Department of 
Homeland Security, which is the vetting organ for all capital 
investments and acquisitions for the Department. I also was the 
Transition Director for the movement of the Coast Guard from 
the Department of Transportation into the Department of 
Homeland Security on behalf of the Commandant. I managed that 
process.
    I would like to make four brief points this morning, and I 
then would be glad to take your questions, Madam Chairman.
    The first point I would like to make is that in the view of 
the Principal Federal Official, which is a job I performed down 
in the Hurricanes Katrina and Rita response, I tend to view 
FEMA's role inside the Department as one which is critical to 
an integrated response across an all-hazards and all-threats 
environment.
    The Homeland Security Act and the Homeland Security 
Presidential Directives 5, 7, and 8 have created a role for the 
Secretary as the incident manager for the Federal Government. I 
believe that any move to take FEMA outside of the Department 
would erode the position of the Secretary as the incident 
manager and create some kind of peer competition that would 
create uncertainty and doubt when we need it the least, and 
that is in response to a major event.
    The second point I would make regarding FEMA's location 
inside the Department is the synergy that we are deriving by 
all working together as components within the Department of 
Homeland Security. The synergy between FEMA and the Coast Guard 
since we have joined together in the Department has been 
extraordinary. We have increased the number of operations and 
exercises we have conducted just in the 3 years the Department 
has been in existence by over 300 percent. We have expanded the 
mission assignments that we deal with for FEMA from three or 
four areas across one or two emergency support functions to 10 
emergency support functions and 22 pre-scripted mission 
assignments.
    Third, as the Chairman of the Joint Requirements Council 
for the Department, I can say that the synergy gained by 
looking at requirements for emergency communications, emergency 
notification, capabilities and assets that we all bring to the 
fight out there together are being vetted, and we are working 
together to join those requirements and provide the most 
effective tools to the workforce inside the Department of 
Homeland Security.
    The fourth point I would make, as you know there is a 
proposed field structure to put preparedness officials at a 
regional level out there. I think any move to take FEMA outside 
the organization would create dual field structures and would 
increase not only the cost but the increased coordination at 
the regional level.
    With those brief comments, I would be glad to take any 
questions you may have of me.
    Chairman Collins. Thank you very much, Admiral.
    Admiral, when the Coast Guard was brought within the 
Department of Homeland Security, it was given certain statutory 
protections to prevent the Department from reorganizing it or 
stripping it of assets or authority. Do you think that is a 
model for this Committee to look at as we seek to keep FEMA 
within the Department but boost its authority? Has it worked 
well for the Coast Guard to be within DHS but to have that 
extra protection for its legal status?
    Admiral Allen. I think it has been extraordinarily 
beneficial for the Coast Guard to be in the Department of 
Homeland Security. If you look at what I would call a Venn 
diagram of the overlap of mission and roles related to what the 
Coast Guard does and where we were placed in DOT and the 
overlap within the Department of Homeland Security and the 
other components, I think there is a tremendous amount of 
overlap in the Department of Homeland security. I think it is 
the right place for us to be.
    You are right, Section 888 of the Homeland Security Act 
required that our mission set be intact when we moved over and 
that we move over in whole as an agency. We feel that with over 
200 years of experience and all of the functions that we do on 
the water for America, that was the right thing for the Coast 
Guard. It has allowed us to sustain our level of performance 
and take what was a mature organization and continue our 
service to the United States.
    Chairman Collins. Admiral Allen, one of the findings of 
this Committee, when investigating Hurricane Katrina, was that 
the Coast Guard did a terrific job of prepositioning its 
assets, moving personnel out of harm's way, and yet placing 
them close enough so that they could respond quickly once the 
fury of the hurricane had passed by.
    When Admiral Duncan, the Coast Guard's 8th District 
Commander, testified last November, he said that there was a 
direct link between the Coast Guard's preparedness and training 
and its success in responding. If we accept that the Coast 
Guard's organization, which includes both preparation and 
response functions, is at least partially responsible for its 
success, doesn't that organizational model also hold promise 
for FEMA?
    In other words, shouldn't preparedness and response be 
recombined, given that good preparedness improves the response?
    Admiral Allen. Yes, ma'am. I think I would expand on the 
comments that the Secretary made earlier. At the risk of 
condensing this to an oversimplification, I believe there is a 
big P in preparedness and a small P in preparedness. And what I 
mean by that is when you look at the Coast Guard in terms of 
preparedness or what we would call readiness, that really 
relates to the missions that we perform for the American 
public.
    If you look at the Department of Homeland Security's 
mission to meet all hazards and all threats in an incident 
management mode for the entire country, there is also a big P 
on how you can combine what the Department is intending to do 
under the Homeland Security Act and the various policy 
statements that establish the Secretary as an incident 
commander to create what I would call a corporate preparedness 
function.
    One of the reasons we are able to perform as we do is we 
focus on the readiness and preparedness of our agency in 
relation to our own roles and missions. So I think there is an 
agency level preparedness level and then there is an 
integration of preparedness across the components of the 
Department. I believe that is what the Secretary is referring 
to.
    Chairman Collins. Admiral, I use the Coast Guard as Exhibit 
A when I am making the case that FEMA ought to remain within 
the Department because the Coast Guard was the stellar 
performer in response to Hurricane Katrina. And yet, it was 
moved within the Department. What do you think made the 
difference? Why was the Coast Guard successful as part of the 
Department of Homeland Security when FEMA was not?
    Admiral Allen. I remember at the time having some 
discussions with Secretary Mineta in DOT, and this was a very 
painful time for DOT and the Coast Guard. It was a very 
bittersweet moment for us. Secretary Mineta had arguably been 
our best service secretary inside the Department of 
Transportation.
    But when you are in the military, in the Coast Guard, you 
swear an oath to defend the Constitution, and ultimately there 
is a higher authority. When you are given an order, you obey 
it. We mustered up our service, we reported for duty, and at 
that point we committed to the full success of the Department.
    I said in my change of command speech on May 25 that the 
Homeland Security Act created the promise. We must keep it. And 
that is my position.
    Chairman Collins. Thank you. Senator Lautenberg.
    Senator Lautenberg. Thank you, Madam Chairman.
    Commandant Allen, I congratulate you for the assignment you 
have and the experience that you bring to the job. We are very 
proud of the Coast Guard. I do not know whether you know my 
history of support for the Coast Guard.
    Admiral Allen. Extensively, sir.
    Senator Lautenberg. A lot of years. So by no means, as 
these questions are raised, is there any intention to criticize 
the Coast Guard.
    We all watched with admiration and amazement the Coast 
Guard's involvement in Hurricane Katrina. The helicopters, the 
bravery of the people in that terrible weather to complete 
their assignments.
    I heard you say that the Coast Guard moved bag and baggage 
into DHS. Are you aware of the fact that there was any 
opposition to that within the Coast Guard family in the days of 
planning?
    Admiral Allen. I think the Secretary commented earlier. 
Anytime there is change there are going to be people that are 
disrupted by it.
    The conversation I had at the senior leadership level, at 
the time I was the Atlantic Area Commander, my view was there 
was more of a concern that if we moved that our missions would 
stay intact and we would move over as an agency with that 
stable, mature pass that we have and be able to perform 
effectively right out of the chute.
    I know my own personal opinion was that if the direction 
was to move to the Department of Homeland Security, we should 
make that successful and focus on mission execution.
    Senator Lautenberg. Could we apply the same thing to FEMA? 
All of us have now learned, unfortunately, that the assignments 
that FEMA faces could be far greater than anything imagined in 
all of the history of the country.
    And so they could move, and I am looking at your statement, 
and you talk about planning prescripted mission assignments and 
that you have committed yourself to get these things in place 
so that you can be effective for any of the disasters that you 
might be called upon to deal with.
    But would FEMA not be able to reach out to the Coast Guard 
if they were the calling agency, I will use the term?
    Admiral Allen. They could, they would, and they did before 
the move to the Department of Homeland Security. I would tell 
you the big difference is that when you work with an agency 
everyday, inside the same department, you get to know each 
other. And there are built-in synergies and efficiencies that 
do not show up on an organization chart or in legislation.
    The other thing is, with all of these assets being in one 
department at the discretion of the Secretary, he can move 
these assets before the mission assignments are made, and you 
can worry about the billing later.
    If the Secretary called me this afternoon and said here is 
the issue, we would launch an aircraft and we would take care 
of the paperwork later. It is a little harder to do if you are 
not in the same department.
    Senator Lautenberg. But you did operate well within the 
Department of Transportation.
    Admiral Allen. Yes, sir.
    Senator Lautenberg. Always--semper paradis--and I know you 
hew to that motto, and we all believe that of the Coast Guard. 
I have seen you in places when you had to pull me in in a 
little stormy weather. This was before the Senate. I would not 
have called on you otherwise.
    I think it is certainly logical and possible that the Coast 
Guard could be as readily available whether FEMA was next door 
or they were down the block or in another city. The Coast Guard 
is known for being ever ready.
    Were there any problems in terms of getting the response to 
Hurricane Katrina in moving with the maximum commitment of 
resources that you had? There were not any, were there? Your 
people responded, the equipment was made available virtually on 
the spot.
    And so I see that facility available all the time. Maybe we 
have grown accustomed to your place, and that is that you are 
always there. I really believe that would be the condition that 
we would see if FEMA was a separate department.
    Admiral Allen. We would always endeavor to be responsive, 
Senator.
    Senator Lautenberg. Thanks, Madam Chairman. Thanks, 
Commandant.
    Chairman Collins. Thank you. Senator Voinovich.
    Senator Voinovich. Thank you very much.
    I would like to congratulate you, Commandant, on the 
outstanding job, the stellar job, that the Coast Guard did 
responding to the catastrophe of Hurricane Katrina.
    You have been able to sit in the catbird's seat for quite 
some time to watch what has been going on at DHS. And I would 
like first for you to share with us your observations about the 
integration that is going on within the Department. You were 
here for Secretary Chertoff's testimony. I would be interested 
in your perspective on whether or not you are seeing 
integration among all these agencies that have never worked 
together before.
    Second, specifically regarding the Preparedness Directorate 
and FEMA, I have lots of good feelings that Mr. Foresman and 
Mr. Paulison are going to work together. But if you look at the 
structure there, if they were gone and you had two other 
people, do you think the structure would enhance a good 
relationship or detract from it?
    And last but not least, the issue of the Army Corps of 
Engineers. Senator Coburn was talking about the Army Corps and 
the fact that a lot of the problems we had in New Orleans dealt 
with the Army Corps of Engineers.
    Do you think it would be wise to improve coordination 
between the Army Corps of Engineers and the Department of 
Homeland Security?
    Admiral Allen. Let me address the first question.
    In looking at the relationship between an operating 
component in the Department and the preparedness 
undersecretariat, I think a useful analogy might be with the 
Coast Guard's experience as we moved into the Department. Prior 
to the transition into the Department of Homeland Security, the 
Coast Guard had a significant responsibility for what we called 
the National Contingency Plan. This was a series of plans that 
evolved most notably out of the Exxon Valdez spill in 1989 and 
the Oil Pollution Act of 1990 that required a significant 
preparedness role for the Coast Guard including periodic drills 
on spills of national significance.
    I was a National Incident Commander for one of those in New 
Orleans in 2002, and we are planning for one next year at the 
new Madrid Fault in the central part of the United States.
    What we have done is we have taken the preparedness 
responsibilities that have grown extensively in the Coast Guard 
for the last 10 or 15 years and actually have married those in 
to the larger, what I referred to earlier, corporate 
preparedness function at the Department. We have moved those 
seamlessly together and actually have gained synergy.
    While we are testing our oil and HAZMAT response skills in 
the spill of national significance drill that is planned for 
2007, we will also exercise this as an incident of national 
significance related to other aspects of the Department, 
including FEMA.
    So I think there is the potential to integrate from the 
component level up to the preparedness undersecretariat. I 
think we have demonstrated it can be done. I think it is 
possible, sir.
    Regarding the Corps of Engineers, I would almost have to 
beg off on that, but let me just make two comments as it 
relates to my role as the PFO down there. The Corps really 
served two purposes when I was down there. One of them was the 
execution of mission assignments for FEMA in terms of debris 
removal, delivering of commodities, and so forth.
    They also were down there repairing the levees, and they 
have a programmatic stake in that, in relation to their 
programs that are ongoing unrelated to the FEMA response. I 
dealt with them, in terms of an incident manager down there. I 
would not want to make any judgments or presume the 
prerogatives of the Department of Defense or anybody else on 
where they might be located, sir.
    Senator Voinovich. The fact of the matter is that if 
additional budgetary resources had been available to the Corps 
of Engineers, the levee breaches in New Orleans would likely 
have been less severe. I was pointing out to the Chairman of 
this Committee that the Corp's construction budget has been cut 
significantly. That is, to me, unacceptable.
    It seems to me that there ought to be more communication 
going on between the Army Corps of Engineers and the Department 
of Homeland Security to examine the potential threats which 
could be mitigated.
    Admiral Allen. Yes, sir. I did make one recommendation, and 
I did it informally, it was never in writing, in relation to 
Homeland Security and the Corps of Engineers. I thought there 
was a need for greater communications and alignment between the 
program in the Corps of Engineers which designs and builds the 
levee heights and that interaction with the National Flood 
Insurance Program and what the 100-year flood plain does, how 
it interacts with levees. I thought there was some room for 
coordination there, and I did make that recommendation.
    Senator Voinovich. One of the concerns that we all had when 
the Coast Guard came into the Department of Homeland Security 
was that you already had significant responsibilities. The 
concern was that with the added responsibilities, you would be 
shortchanged, you would not have the resources to take on the 
new role that we were asking you to take on at DHS.
    I know I am particularly familiar with the situation in 
Cleveland and Lake Erie. I've talked with folks from the Coast 
Guard, who have said, Senator, we have a big job to do and now 
you are asking us to do a whole lot more. They were very 
concerned about whether or not they would have the resources to 
take on additional duties.
    Could you comment on how you feel about the resources and 
whether we have given you the money that you need to get the 
job done? Or are there some areas that you feel deserve 
additional resources?
    Admiral Allen. Senator, when you take an organization like 
the Coast Guard, which is multimission, that means rather than 
having three or four agencies you have one agency that can do a 
lot of different things at any particular time. You are not 
going to be optimized along one program completely. So you are 
always having to make trade-offs, risk-based decisionmaking 
between the allocation of resources to the highest threat 
within your area of responsibility.
    We traditionally have allowed our commanders to do that. We 
provide them with a certain level of resources, and they 
adjudicate that in the area in which they are responsible for, 
whether it is Cleveland or the Straits of Florida or the Bering 
Sea. That is one of the geniuses of our organization. It also 
allowed us to be able to react with those resources down in New 
Orleans and everywhere else we operate in the Coast Guard.
    So there is a built-in mechanism in the Coast Guard to vet 
competing priorities and apply the resources available to the 
highest need.
    If you are looking at 95,000 miles of navigable coastline 
in this country with the rivers, the lakes, and the coast 
lines, you are never going to have enough resources to cover 
all of that. So we are always going to be in a situation where 
we are applying resources based on risk.
    Can we use more effectively? Sure we can. But the resources 
we have will be applied to the best extent that our 
professionalism and our competencies allow under risk-based 
decisionmaking. And we have evolved that significantly since 
September 11. We have come up with a risk-based decisionmaking 
model that accounts for both threats, vulnerabilities, and the 
consequences associated with that in our largest ports. We do 
allocations within those areas based on that risk-based 
methodology.
    Senator Voinovich. So you have----
    Admiral Allen. Whatever money we get, we will spend it 
wisely, sir. [Laughter.]
    Senator Voinovich. You did a good job of dodging that. 
Maybe we ought to talk privately about this. Thank you.
    Chairman Collins. Senator Lieberman.
    Senator Lieberman. Thank you.
    Admiral Allen, thanks. Good morning, good afternoon now, 
and thanks for your service to our country.
    Part of what we are trying to get at is what we can learn 
not only from the failures of Hurricane Katrina but from the 
successes, and again, the Coast Guard was clearly a success.
    As I described, when Secretary Chertoff was here, we were 
struck, I was certainly, by the extent to which the Coast Guard 
operated essentially without having to check up the chain of 
command to do the basic things it had to do.
    Am I correct to conclude that is a manner of exercising 
long-held Coast Guard statutory authority? Or is it just 
custom, without separate statutory authority?
    Admiral Allen. It is both, Senator. First of all, any petty 
officer or commissioned officer in the Coast Guard is an 
officer of the Customs, and we have been since 1790. We were 
the first customs officers as part of the Revenue Marine and 
then the Revenue Cutter Service. So we have a long statutory 
basis for being able to act independently, either in a law 
enforcement capacity or in our role with the Department of 
Defense as an armed force.
    But by custom and by practice, the principal on-scene 
initiative is one that has been embedded in the Coast Guard for 
over 200 years. It relates to the early days when you had a 
single revenue cutter in Long Island Sound attempting to stop 
British smuggling, or after the purchase of Alaska revenue 
cutters up there which were basically the government for Alaska 
until it was able to be established, clear to that patrol boat 
commander in the Persian Gulf among the oil platforms right now 
that is given tasking and expected to accomplish it out there.
    So it is a combination of statutory authority and how we 
have evolved as an agency and how we grow our leaders, sir.
    Senator Lieberman. I appreciate that, and that is an 
interesting part of the story.
    I want to ask you if you would just respond to this 
situation: Should we clearly give FEMA, or whatever we call the 
agency that carries out the responsibilities that FEMA does 
now, more clear statutory authority to act independently? I do 
not obviously mean in violation of a chain of command, but I 
mean to--for instance, right now there is some feeling, even in 
a catastrophe like Hurricane Katrina, that FEMA has to wait to 
be asked to come in.
    And I wonder whether we should, based on the precedent the 
Coast Guard has set, which is a good one, an important and 
effective one, authorize FEMA in that case to exercise 
independent authority and move in to help?
    Admiral Allen. I think you raise an excellent point, 
Senator, if I could make two points associated with that. The 
way the Stafford Act is constructed, and this gets back to a 
statement made earlier by the Secretary, resources can only be 
flowed into a State or local government pursuant to either a 
disaster or emergency declaration. So you are already a little 
bit behind the power curve in flowing resources to where you 
may need them.
    I think looking at the Stafford Act and creating some kind 
of mechanism that allows resources to be made in advance of an 
event to pre-stage would be something you probably ought to 
look at.
    I would commend to you the Oil Pollution Act of 1990 in the 
following sense, without being too melodramatic about this, the 
Exxon Valdez was the Coast Guard's Hurricane Katrina. We did 
everything by the book, the way we were legally supposed to. 
And there was a general perception that there was a failure 
because not as much was being done that should have been done 
and the Federal Government should have stepped in.
    As a result of the passage of the Oil Pollution Act of 
1990, there was a 5-cents-a-barrel tax put on crude oil that 
basically capitalized the Oil Spill Liability Trust Fund that 
allows the Coast Guard to act under a threat of discharge, even 
if there is no responsible party.
    I think if you look at the structure of the Disaster Relief 
Fund and how we actually execute the disaster resource 
management function through FEMA, there might be some way ahead 
where you could have some buffer fund that would allow you to 
prestage, especially in communities that have certified 
evacuation plans or have demonstrated the competency to be able 
to apply those resources in advance, sir.
    Senator Lieberman. That is a very helpful answer.
    Or, as in the case of Hurricane Katrina, both prestage and 
maybe begin to act, particularly as in Hurricane Katrina when, 
at least in the city of New Orleans, the constituted authority 
was incapacitated because of failure of communication systems 
and the rest. Because if you are not there prepositioned, it is 
going to be pretty hard to act.
    Admiral Allen. Yes, sir. There were two elements to that. 
One is prepositioning the forces and applying them, but even 
after the event to flow the forces in.
    The mental model that I used to approach my job in New 
Orleans was that we had something more than a hurricane. And 
that a legacy hurricane response was not going to be sufficient 
to ensure the mission outcome that was being sought, at least 
in and around New Orleans when I first got there.
    Allen's view of the event was when the levees were 
breached, you had the equivalent of a mass effect used on the 
city of New Orleans without criminality. What I mean by that 
is, normally, if you had a weapon of mass effect used, it would 
be a criminal action, there would be a definite investigative 
lead, and somebody would be applying tactical resources to 
mission effect.
    When you had the loss of command, control, and 
communications within the city of New Orleans, while we were 
flowing in urban search and rescue forces and disaster medical 
assist teams, there was nobody, in military terms, to take 
tactical control, or TACCON, of those resources and apply them 
to mission effect.
    So you had extraordinary heroism and courage demonstrated 
by the urban search-and-rescue teams and the helicopter pilots 
but they were basically self-organized. And they did it 
remarkably under incident command system because they knew 
enough about it, and there was enough on-scene initiative.
    But how they reported back up and how that related to the 
emergency repairs of the levees and the coordination of the law 
enforcement officers that were at the Royal Sonesta Hotel in 
New Orleans, that was not all bound together. So my first job 
when I got there was to create a unity of effort between those 
forces that had been deployed in but had to be self-organized 
and were not really brought together under a unified command.
    Senator Lieberman. That is a very helpful answer, a very 
important recollection of what happened there. You know it 
required two things. One is the training, capacity, and 
authority within the Coast Guard, and your absolutely correct 
judgment that this was not a typical hurricane or disaster.
    And I am afraid, in the case of FEMA, not only were they 
not prepared because they had not pre-deployed or pre-
positioned, also they did not have the preparedness to do what 
your Coast Guard forces were doing.
    This makes an important point, which our report tried to 
make, that as much as we look back at FEMA with appreciation 
for the times it has performed well, and we had testimony on 
this from one of the independent experts we had come before us 
at a hearing, FEMA has never been prepared to deal with--we 
have been using the terminology catastrophe. It dealt with 
disasters. It never was prepared to deal with a catastrophe.
    And that is what we have got to get it to be able to do, 
whether it is a naturally occurring catastrophe or, God forbid, 
an unnatural weapon of mass destruction effect catastrophe.
    Admiral Allen. Senator, I could make a comment, I think it 
has to do with the structure of FEMA, as it relates to the 
execution of their responsibilities under the Stafford Act, the 
role of the Federal Coordinating Officer as the disaster 
resource manager, which is a fiduciary responsibility they have 
to execute those appropriations.
    Once you go beyond a Stafford Act response and it requires 
something else, not related to the execution of those duties, 
then you are moving into the area where you need a Principal 
Federal Official because those are competencies and 
capabilities that are not resident in the day-to-day operations 
of FEMA.
    And that is where what I call this hybrid event started to 
diverge in terms of the requirements that were needed to 
respond to it, sir.
    Senator Lieberman. Excellent point, full of insight that is 
obviously based on experience.
    Thanks very much.
    Chairman Collins. Thank you, Senator.
    Admiral, thank you so much for appearing today.
    Before I let you go, I want to tell you that the Members of 
this Committee recognize that the Coast Guard has taken on 
enormous additional responsibilities since the attack on our 
country on September 11. And all of us are impressed with how 
the Coast Guard has stepped up to the plate, whether it is port 
security or other functions.
    I personally think that we have not done a sufficient job 
in making sure the Coast Guard has the resources to match its 
expanded mission. And several of us have been pushing for an 
acceleration of the Deepwater Program, for example, so that you 
are not spending 25 percent of your funds to repair legacy 
assets, so that your cutters and your aircraft are able to be 
mission ready at all times.
    I continue to believe that accelerating the Deepwater 
Program would not only assist the Coast Guard in performing its 
mission more effectively, but would actually save $1 billion in 
the long run.
    I am not going to put you on the spot by asking you if you 
would welcome an acceleration of the Deepwater Program because 
I assume the answer is yes. But I realize you are not always 
free to give those kinds of answers in your new position. But 
if you would like to make any closing comment before leaving us 
today, I would invite you to do so.
    Admiral Allen. I appreciate the kind remarks, not on behalf 
of myself but on behalf of the extraordinary men and women of 
the U.S. Coast Guard. The greatest benefit that I have accrued 
in the job that I am taking over is I get the opportunity to 
work with these people for 4 more years, and that is an 
extraordinary blessing as far as I am concerned.
    I look forward to working with the Committee in the future.
    Chairman Collins. I think he dodged another one, Senator 
Voinovich. [Laughter.]
    But thank you for being here, and we wish you much success 
in your new position.
    Admiral Allen. Thank you.
    Chairman Collins. I would now like to welcome our third and 
final panel this morning, Dr. Donald Kettl and Dr. John 
Harrald.
    Dr. Kettl is the Director of the Fels Institute of 
Government at the University of Pennsylvania. He is the author 
of numerous articles and journals on the topics of homeland 
security and emergency preparedness and is considered a 
preeminent scholar on these topics.
    Dr. Harrald is the Director of the Institute for Crisis, 
Disaster, and Risk Management at the George Washington 
University and a Professor of Engineering Management and 
Systems Engineering in the G.W.U. School of Engineering and 
Applied Science. He is the Executive Editor of the Journal of 
Homeland Security and Emergency Management and has been very 
engaged in these fields as a researcher in his academic career 
and as a practitioner during his 22-year career as a U.S. Coast 
Guard officer.
    We thank you both for joining us and for the advice that 
you have given the Committee.
    Dr. Kettl, we are going to begin with you.

    TESTIMONY OF DONALD F. KETTL, PH.D.,\1\ DIRECTOR, FELS 
      INSTITUTE OF GOVERNMENT, UNIVERSITY OF PENNSYLVANIA

    Mr. Kettl. Madam Chairman, thank you so much and thanks for 
the opportunity to appear before you today and to share not 
only my opinions but some of the work that we have done at 
Penn, including our book on risk and responsibility, which is 
an effort to try to explore some of the lessons learned from 
Hurricane Katrina.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Kettl appears in the Appendix on 
page 82.
---------------------------------------------------------------------------
    The core of those lessons is that we have serious problems 
that we need to fix. But we have to make sure that in the 
process of fixing them that we solve the right problem and make 
sure that in the process we do not inadvertently create new 
ones.
    The guiding principle for figuring out how to think about 
that, I think, Madam Chairman, is the need to try to focus on 
what will work on the front lines, that national policy and 
Federal policy, however well-intentioned, that does not work on 
the front lines for first responders will be, as we discovered 
in Hurricane Katrina, a prescription for continued failure.
    The approach to getting at that, I think, is a series of 
principles: To make sure that what we have first focuses on 
operational awareness, to make sure that what we do at the 
national and the Federal level works for the people on the 
front lines.
    Second, the front line effectiveness is the ultimate 
measure of whether or not we have the right policy.
    Third, the Committee's recommendation for an all-hazards-
plus strategy, one that recognizes the interconnection between 
natural and unnatural events in Homeland Security, is precisely 
the right one.
    And finally, to make this work, we have to make sure that 
we link preparedness, response, and remediation together in 
something that works in an integrated fashion.
    All of those things together, I believe, lead to a proposal 
and the need to try to keep Homeland Security operations and 
FEMA's operations linked together inside the Department of 
Homeland Security.
    There are four reasons for that, and let me try to 
summarize those briefly. First is that we know we have 
problems. But I think any careful look would reveal that the 
problem is not structural. As Admiral Allen has just testified, 
the Coast Guard behaved superbly in the context of Hurricane 
Katrina and its aftermath, but did it because they were part of 
Homeland Security. If you look at FEMA's response in the past, 
there have been serious difficulties with Hurricane Andrew in 
1992, with the TOP-OFF 2000 exercise that showed difficulties 
in getting clarity of command, problems getting communication, 
difficulties of coordination with State and local officials. So 
that the structure itself does not seem to be connected with 
the results.
    What is connected with the results is the quality of the 
leadership that had been brought to the table.
    What we need to make sure is that we do not inadvertently, 
in response to last year's clear and demonstrable problems, end 
up solving the wrong problem, instead of focusing on improving 
leadership and instead focusing on issues of structure. 
Structure matters, but leadership matters more. And the key is 
not to create some of those issues that now would make things 
even harder to solve.
    The first principle is that the fundamental problem is not 
structure.
    The second one is that response to the problems that we 
face has to build on an all-hazards-plus strategy. The easiest 
way to make this point is if you think back to the situation 
that the firefighters faced on the morning of September 11 as 
they rolled out of their stations in Lower Manhattan. All they 
really knew was they were responding to the scene of a very 
large fire. At the time, in fact, they thought it had been 
caused by the collision of a small plane into the World Trade 
Center. They just knew that they had a very large fire to 
respond to, and they found themselves in the middle of the 
biggest terrorist attack in U.S. history.
    The thing is that all homeland security events, all natural 
disasters, all terrorist attacks, all begin with the need for 
local responders to respond. And from the local point of view, 
there is no artificial distinction between things that are 
terrorist related, things that are based on natural disasters, 
things that are earthquakes, things that are fires, things that 
may be chemical, biological, or nuclear threats. They all 
require integrated local response.
    And the primary Federal responsibility has to be to make 
sure that the local response is aided by effective national 
policy.
    So that argues for the all-hazards-plus strategy that the 
Department has had recommended to it by this Committee and by 
its report.
    So the second point is that response has to build on the 
strategy for this all-hazards-plus strategy.
    The third piece is that it is clear that some 
organizational alternatives would make things worse. From the 
point of view of local first responders, there is no artificial 
distinction between preparedness and response, between 
remediation and dealing with consequences. Firefighters do what 
fighters do. Police officers do what police officers do. 
Emergency medical technicians do what they do. And it is their 
job to do what has to be done.
    The worst thing that could happen in the middle of a crisis 
is to say, OK, now all of the people that you dealt with in 
terms of preparedness now have to hand you off to people who 
are dealing with issues of response. For the people on the 
front lines, there is no distinction of that sort. And we owe 
it to them, more than anything else, to make sure that they can 
do their job effectively and do it well.
    And that argues for a need for linking preparedness with 
response, remediation with an effort to try to deal with 
consequences, to try to make sure that we have a seamless 
national strategy to make possible a seamless local response. 
What we discovered, unfortunately, in the case of Hurricane 
Katrina is that we had neither. It is our primary obligation to 
learn those lessons from New Orleans and from the Gulf to 
ensure that, in fact, we do not repeat those problems.
    So the third lesson is that it is clear that some 
organizational strategies would make things worse. And that 
would be a strategy that put back in the stovepipes that we 
have been trying so hard to break down. And that is what we owe 
local first responders.
    The fourth lesson is that leadership really matters most. 
What most of FEMA does most of the time is not exercise command 
authority. It is not a matter of command and control. Most of 
what FEMA does when FEMA does what it does well, and what the 
Coast Guard has done in doing what it has done so effectively, 
is to build partnerships.
    I think one of the things that Admiral Allen just testified 
to is something that bears repeating, which is that it is not 
really an issue of providing unity of command as much as it is 
unity of effort.
    What we need ultimately is unity in effectiveness as well. 
It is making sure that we have the different parts of the 
system that connect together that is FEMA's foremost 
responsibility.
    What worries me about some of the proposals that have 
surfaced about bringing FEMA out of the Department of Homeland 
Security is that it is, in my mind, a misdiagnosis of the 
fundamental problem. We have issues that we need to solve. But 
if we focus on structure as the solution, we will miss the fact 
that the most important lesson that we draw from Hurricane 
Katrina and from the successes in Hurricane Katrina is that 
success comes from effective leadership. And focusing instead 
on structure, and trying to restructure to solve the problems, 
means that we risk making leadership harder, and it means we 
missed the possibility of truly understanding what the problems 
and the solutions are.
    To be an effective FEMA Director, I think what we really 
need is somebody who sees their job as the conductor of a well-
tuned orchestra. What we saw instead, in the aftermath of 
Hurricane Katrina, was an unseemly fight for the baton, a kind 
of battle over control. And we missed, and we risk continuing 
to miss, the important lesson that Hurricane Katrina has taught 
us, which is the importance of trying to ensure that we have 
that finely tuned orchestra and a orchestra conductor who can 
come to the head--sometimes, whether it is playing Beethoven or 
playing Bach, we find the right way to get this symphony to 
play the right instruments in the right way to create the right 
music when the Nation most needs it.
    I fear that moving FEMA again will risk distracting us from 
this most important lesson and that, in the end, we will miss 
the lesson that it is leadership that matters most.
    In conclusion, Madam Chairman, it seems to me that what we 
really need to understand is that FEMA does not need so much to 
be restructured as to be reimagined and to be focused with a 
strategy that puts leadership at its core, to make it a lively 
cutting edge organization that will make it key to the 
strategies and the solutions and the approaches that the 
country most needs to follow.
    It is true that some of this we could do if FEMA were 
removed. But it is unquestioned in my mind that all of this 
needs to be done and could be done much more and should be done 
much more effectively with FEMA included in the Department of 
Homeland Security.
    The reasons are that the problems are not fundamentally 
structural. They are based on issues of leadership. 
Restructuring cannot ensure leadership and in some ways could 
make things worse. The solution really lies in creating strong 
and effective leadership with an all-hazards-plus mission that 
links together preparedness, response, and remediation. It is 
creating that seamless piece of Federal strategy to ensure that 
ultimately what works most is making sure that FEMA and its 
strategies work on the ground where it matters most, where 
first responders need to respond, that lies at the core of what 
it is that has happened.
    So what we really need to do, I think, is to make sure that 
we keep FEMA in Homeland Security and integrate it more 
carefully, as the Coast Guard has proven can be done, into the 
Nation's central homeland security strategies.
    That, Madam Chairman, I believe is the central lesson that 
Hurricane Katrina has so painfully taught us.
    Chairman Collins. Thank you. Dr. Harrald.

TESTIMONY OF JOHN R. HARRALD, PH.D.,\1\ DIRECTOR, INSTITUTE FOR 
 CRISIS, DISASTER, AND RISK MANAGEMENT, THE GEORGE WASHINGTON 
                           UNIVERSITY

    Mr. Harrald. Thank you, Madam Chairman, Senator Lieberman, 
and distinguished Members of the Committee, for the opportunity 
to testify on how to best structure national emergency 
management resources.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Harrald appears in the Appendix 
on page 93.
---------------------------------------------------------------------------
    Your report ``Hurricane Katrina: A Nation Still 
Unprepared'' provides, I believe, well reasoned recommendations 
for revitalizing national emergency management on an all-
hazards basis that should be seriously considered by both 
Congress and the Administration.
    Hurricane Katrina was the first test of the reconstruction 
of emergency management as a component of a homeland security-
centered national response system. Hurricane Katrina obviously, 
as we have discussed, exposed shortcomings across all phases of 
emergency management. As Karl Weick from Michigan State has 
observed, ``reality is a cruel auditor.''
    The United States continues to be vulnerable to extreme 
events with potentially catastrophic consequences. Nature will 
not rest after Hurricane Katrina, nor did terrorists stop their 
planning after the September 11 attacks. Our society and 
economy must able to withstand and adapt to these extreme 
events and to continue to thrive at all levels of government.
    Form follows function, so we must first ask what we expect 
the Federal Government to do? The post-Katrina reports from 
this Committee, from the House Select Committee, the White 
House, the Government Accountability Office, and the Department 
of Homeland Security Inspector General collectively contained 
321 recommendations, providing some insight into these 
expectations. We certainly expect Federal leadership and 
coordination to produce an effective national emergency 
management network of organizations, led by DHS, capable of 
reducing vulnerability and managing the response to and 
recovery from potentially catastrophic events of all types.
    However, as William Jenkins of the Government 
Accountability Office notes, no matter how we organize, the 
Department of Homeland Security controls only a portion of the 
resources needed to succeed in this task.
    Coordination and networking, not command and control, are 
the essence of emergency management. DHS must coordinate the 
actions of other Federal departments, State and local 
governments, non-governmental non-profits, and private sector 
organizations.
    Coordination is one critical success factor. The others are 
capacity, capability, and competence.
    The current debate is framed in terms of organizational 
solutions. Should emergency management responsibilities remain 
in DHS? Or should an independent FEMA be created? If emergency 
management remains in DHS, are the changes proposed in 
Secretary Chertoff's Second Stage Review and the ongoing post-
Katrina revisions to the National Response Plan and NIMS 
adequate? Or is more radical restructuring required?
    How extensive an emergency management role should we assign 
to DOD?
    I believe, as has been stated, that depending on the 
leadership and resources provided, any alternative could 
conceptually work or without the leadership and resources could 
also fail.
    I believe that the organizational proposal made by your 
Committee is superior to other alternatives for the following 
reasons: The DHS Second Stage Review reorganization does not 
restore comprehensive all-hazard emergency management within 
DHS and in my opinion will exacerbate some of the problems we 
witnessed in the Hurricane Katrina response. This element of 
the reorganization has been opposed by the National Emergency 
Management Association because it separates preparedness from 
response and recovery, creating a disconnect for the States.
    Under this plan, FEMA will be reduced to a response 
organization, competing with preparedness for a budget.
    More importantly, the proposed structure will constrain 
vital feedback between response and recovery results and the 
mitigation and preparedness programs, damaging our ability to 
learn from the experience and to reduce the impact of future 
disasters.
    As has been stated by others, FEMA cannot be recreated as 
an independent agency without a difficult organizational 
transition period and a rewriting of doctrine and redesign of 
systems that we can ill-afford. Natural hazards and terrorists 
are simply not going to wait for us to reorganize yet again.
    Emergency management at the Federal level has been absorbed 
in concept and in doctrine within Homeland Security. FEMA as an 
independent agency ceased to exist when DHS was formed and the 
Secretary was designated by law as the Primary Federal Official 
for all incidents of national significance. The FEMA name was 
retained largely to preserve internal morale and to capitalize 
on the Agency's good public image.
    Functions performed by the formerly independent agency have 
been consolidated and somewhat distributed in DHS. The removal 
of FEMA from DHS will seriously disrupt the Department, 
removing the consequence management portion of its 
comprehensive risk management responsibilities, as Secretary 
Chertoff stated.
    An independent FEMA will remain a small agency that will be 
overwhelmed by a Hurricane-Katrina-scale event. It has been 
constrained in capacity and capability both as an independent 
agency and now as a member of DHS.
    I and other academics were frequently interviewed by the 
media in the aftermath of Hurricane Katrina about FEMA's 
performance. I made a practice of asking my interviewer how 
many people he or she believed actually worked for FEMA. The 
smallest answer I got was 10,000 people. The more typical 
response I got was between 100,000 and 150,000 people. All were 
shocked when I informed them that the FEMA staff was less than 
2,000 people.
    The creation of DHS was supposed to dramatically expand the 
pool of skilled personnel available as a surge capacity for 
emergency management. Hurricane Katrina showed that it does not 
yet work that way, but the potential is there and is seriously 
needed and is recognized in both the Second Stage Review and 
your Committee's report.
    At this point I would add some comments based on my Coast 
Guard background, since that has been asked, why did the Coast 
Guard work and why not? One of my experiences was command of 
the Connecticut Region Group Long Island Sound for 3 years, 
living in New Haven.
    This was not the first response during which the Coast 
Guard had this agility and discipline. The Mariel boat lift, 
the September 11 response, as you said. The leadership at the 
top levels, as we saw with Admiral Allen and with Admiral 
Collins, was certainly exemplary. But in my opinion, the 
decentralized local-based leadership, the competence at the 
bottom levels, the bottoms up where it is just as key. And the 
organizational culture that is based on the delivery of 
services, the focus on mission, and the preparedness at the 
local level is very critical.
    The result is an organization, I think, the model that the 
Coast Guard has is the discipline and structure, which is 
doctrine and structure, but also the agility, which is a very 
decentralized organization. The people live there, they work 
there, and they live in the community. When I was in the 
command, I lived in New Haven. I knew the mayor. I knew the 
people. I worked with them on a day-to-day basis.
    When you fly in during an extreme event then you do not 
know who the local folks are. So that model, I think, of both 
agility and discipline is critical.
    In conclusion, getting the structure right will not be 
easy. It is only the first step in solving the problems 
identified in the post-Katrina evaluation.
    The 9/11 Commission termed the failure to anticipate and 
deter the terrorist threat a failure of imagination. The House 
Select Committee called the inept response to Hurricane Katrina 
a failure of initiative.
    We now know about the potential catastrophic consequences 
from the threats and hazards facing our Nation. We also know 
what must be done to mitigate, to prepare for, to respond to, 
and to recover from extreme events.
    Failure to successfully reduce these potential future 
catastrophic consequences would, in my opinion, be viewed by 
history as a failure of intent. We must get it right this time.
    I thank the Committee for the opportunity to testify. And 
more importantly, I thank you for focusing the public discourse 
on issues critical to our Nation's survival.
    Chairman Collins. Thank you very much, Dr. Harrald.
    Your comments about your Coast Guard experience were very 
illuminating.
    As part of our report, we have proposed regional offices 
for DHS that would include strike teams that would be made up 
of all the Federal agencies that would be involved in a 
response and would train with State and local emergency 
managers. This has been an overlooked recommendation in our 
report, but I think it is our second most important 
recommendation. And I think your experience indicates why.
    Could you expand on the importance of having people who are 
familiar with the geography, and the public officials, and the 
emergency managers?
    Mr. Harrald. Absolutely. I have known Admiral Allen for 
many years obviously, and I was watching television, as we all 
were. It did not surprise me that the very first thing that 
Admiral Allen did was lock himself in the room with the parish 
presidents, the equivalent of the county executives. And I have 
not talked to him, but I know exactly what he said. It is the 
same thing that I said when I took over my captain of the port 
zone and met with the local executives, not in an extreme 
event, and just asked them what is the problem, what are their 
needs? And by the time he left that room, he had a group of 
people who were clearly on his side.
    It is not just meeting people. It is listening to them. The 
people who know what is going on in the local area are the 
local officials, the people who live there, the people who are 
working within the systems. And that is absolutely a critical 
recommendation in your report.
    Chairman Collins. Dr. Kettl, you have written some very 
interesting articles in which you said that ``the debate since 
Hurricane Katrina has confused the inescapable need for a 
unified command, ensuring that key decisionmakers are all on 
the same page, with the chain of command, the vertical links 
among decisionmakers, from top to bottom of the system.'' And I 
want to explore that issue with you.
    Our current system for emergency preparedness and response 
is a bottom-up system. It relies on the local level first, then 
the State, then the Federal level, if needed. But we saw in 
Hurricane Katrina that the State and local levels were 
completely overwhelmed very quickly by the magnitude of the 
catastrophe and a failure to exercise good leadership and 
planning.
    What kind of structure should we put in place to deal with 
catastrophes that we know are going to be far beyond the 
capacity of State and local governments?
    Mr. Kettl. A couple of points on that, Madam Chairman. The 
first point is that there is no structure that we can possibly 
draw that will put the lines around the problems we are likely 
to face. That is why the problem, in the end, cannot 
fundamentally be a structural one. It has to be a relationship 
one.
    There is one quick story that is worth remembering. One of 
the reasons why the response at the Pentagon on the morning of 
September 11 was so effective, Federal, State, and local 
officials all working together, was that they had a drill the 
preceeding Sunday. They knew each other on a first name basis, 
and what they had practiced on Sunday they did for real on 
Tuesday. It is those pre-existing relationships that are 
crucial.
    The second is that the Federal agencies who were involved 
had a sense of the operational realities because they had 
trained with these people in advance. They had the preparedness 
and the response pieces already worked out because they had the 
relationships already worked out and they understood the 
relationships between those.
    So what we need is an approach on the part of FEMA that 
understands that it cannot control the problem, that its job is 
to try to orchestrate a response, that it needs to understand 
that sometimes it will need the Department of Transportation, 
sometimes it will need the Department of Health and Human 
Services, sometimes it will be a Centers for Disease Control 
enterprise, and sometimes it will be something that may be 
primarily air or water or transportation-based. And it needs to 
find that right collection of Federal resources it can bring 
into place and do it in a way that has operational awareness.
    What FEMA missed was a sense of the horizontal connections 
among those agencies and a sense of the operational awareness 
on the ground. So it is little wonder those connections never 
quite happened. It is the matter of creating and sustaining 
those relationships that is absolutely critical.
    Chairman Collins. Thank you.
    I would like to, in my final question, ask both of you 
about a controversial issue in the chain of command. And this 
has to do with to whom should the FEMA Director report. There 
are those who argue that unless the FEMA Director always 
reports at all times directly to the President of the United 
States, that individual is never going to have the clout and 
the context necessary to respond effectively in a disaster.
    There are those, like Secretary Chertoff, who argue that if 
you allow a second person in the Department to report to the 
President, you confuse the chain of command.
    Our report takes a hybrid approach. I am not sure it is the 
perfect answer, and that is why I want to ask both of you to 
give us your best judgment. What we have said is that the FEMA 
Director should be elevated in the Department to the level of a 
deputy secretary and that he or she should report to the 
Secretary.
    But in times of catastrophe, when there is an incident of 
national significance, the Director would report directly to 
the President of the United States, as well as to the 
Secretary.
    In addition, we have proposed that the FEMA Director be the 
President's principal adviser on emergency management issues. 
What is your advice to us on the reporting structure? I hate 
using the word structure because I agree with you, leadership 
is more important than structure. But we do need to establish 
what the chain of command is going to be.
    Mr. Kettl. I think that is exactly right, Madam Chairman. 
There are two points, two principles that I think help to 
answer it. One is that on matters of major national 
significance, the President ultimately has responsibility for 
ensuring that the response is adequate, and he is going to want 
to make sure that happens. And so, a direct relationship 
between him and the Director of FEMA is going to be essential.
    But on the other hand, in both day-to-day preparedness but 
also on an ongoing basis in ensuring these horizontal 
relationships work, it is critical that FEMA be integrated with 
the rest of the Department of Homeland Security's operations.
    So while it runs the risk of potentially creating some 
confusion, I actually believe that the hybrid approach is the 
most sensible one because it is the only one that I can imagine 
that captures both of those fundamental realities.
    Chairman Collins. Thank you. Dr. Harrald.
    Mr. Harrald. I think the Nation's senior emergency 
management should be at least at the deputy secretary level. 
Part of the issue we saw was the competence, FEMA buried at 
three levels down in DHS, and it was just to many layers to go 
through.
    Whether that dotted line reporting arrangement in time of 
crisis would work or not, I do not know. Again, the model, the 
Coast Guard has worked as an independent military service 
reporting through a cabinet secretary both in Treasury and in 
Transportation, now in Homeland Security, with extreme events 
and others. And that seemed to work.
    The problem is I do not think you can expect over the years 
the appointment for the Secretary of Homeland Security with the 
broad range that he or she has to have that--you are not always 
going to pick an emergency manager, obviously, for the 
Secretary. So you need that expertise at their hip.
    So that part I would strongly endorse. The dotted line, I 
do not know.
    Chairman Collins. Thank you.
    I would say to my colleagues that you just witnessed a rare 
moment in a Congressional hearing where a Senator asked a 
question not knowing what the answer was going to be, but 
really trying to elicit the judgment of our expert witnesses.
    Senator Lieberman.
    Senator Lieberman. Thanks, Madam Chairman, you continue to 
be an inspiration, even if you violate the rules that I was 
taught at law school. But that was a very constructive 
exchange.
    Thanks to both of you for your help here today as we try to 
improve our national emergency preparedness and management 
capacity.
    I want to ask you both first to comment briefly on the 
question that I asked Admiral Allen at the end, which is one of 
the strengths of the Coast Guard in crisis seems to be its 
capacity to act of its own initiative, not as a rogue agency 
but obviously within stated authority.
    And one of the questions I think we have to ask about FEMA, 
or a successor to FEMA, is whether it should be more clearly 
given that authority, particularly in a catastrophic, as 
opposed to disastrous, circumstance, considering Hurricane 
Katrina to be a catastrophe. Do you have a thought about that, 
Dr. Kettl and Dr. Harrald?
    Mr. Kettl. Senator Lieberman, I think one of the things we 
discovered in the aftermath of Hurricane Katrina is we need to 
have the opportunity for stronger Federal authority to assert 
itself. One of the things that I have heard people on the 
ground describe is that what happened was a kind of 
decapitation of government in Louisiana for some time. And the 
consequences were catastrophic.
    We have principles of federalism that are important, and we 
need to preserve the need to establish and continue local self-
government. On the other hand, we cannot allow our citizens 
ultimately to be put at risk as a result of that.
    So what we need to do, and ultimately this has to be a 
presidential decision, is to build the capacity for the Federal 
Government to step in when necessary to provide the kind of 
emergency services that may regretfully be required some time 
in the future. I do not think we want to discover that lesson 
the hard way a second time.
    Senator Lieberman. Dr. Harrald, if I recall, before you 
actually answer the first question, you said to us during our 
investigation that in your opinion FEMA, even at its best, 
never really had the capacity to handle a catastrophe.
    Mr. Harrald. No, it did not. It had a high degree of 
competence, and I think its major successes in the 1990s were 
actually in preparedness and mitigation, the very part that we 
are trying to separate out.
    If you compare probably the biggest event of the 1990s, 
which was the Northridge earthquake, to Hurricane Katrina, 
there is no comparison. You are in a State that was not only 
not overwhelmed, but was clearly, California and Los Angeles, 
city and county, probably the most prepared, equipped, and 
funded for the earthquake threat.
    So FEMA came in in the true support role that it was 
designed to do.
    The size of the Agency, without being able to quickly 
support and gather support from the rest of the government, was 
very constrained at that point and remains so.
    Senator Lieberman. Then I will ask you to respond to my 
question about whether we should be giving FEMA clear authority 
to act independently in a disaster or catastrophe?
    Mr. Harrald. I think the bottom line difference between the 
way the Coast Guard is structured, and believe me, the Coast 
Guard can be as bureaucratic as any organization I've known, 
having lived through that part of it, too, but in times of 
operational mission, can operate very agilely and very 
flexibly.
    Hurricane Katrina showed that basically if you are trying 
to run an operational organization that is Washington-centric 
and bureaucratically structured, you are pretty much doomed 
from the get go.
    The one thing that we can say, whatever the next event is, 
it is going to be one that we did not anticipate and did not 
expect. So what we are doing in our drilling and our preparing 
is pretty much generic preparation. We can run as many 
scenarios and be as smart as we can, but we are going to meet 
with the unexpected when it does occur.
    When you do that, you have to be flexible and agile at 
where the resources are. You have to have full confidence that 
you can act and be backed up and have the ability to do so.
    I think the legislation and the structure and the history 
of FEMA have impeded that process as part of the organizational 
culture.
    Senator Lieberman. I appreciate that obviously because it 
supports the position that Chairman Collins and I have taken, 
that you believe FEMA or a successor authority should be within 
the Department of Homeland Security.
    Is it fair to say then that you would say that during the 
times or occasions when FEMA was successful in responding to or 
preparing for or mitigating a disaster, it had less to do with 
its independent status than other factors, such as the quality 
of its leadership?
    Mr. Harrald. I think it was the quality of leadership and, 
in particular, the contact of that leadership with the State 
and local and regional presence. Part of what FEMA lost as it 
withdrew into DHS was being the primary--well, the funding 
stream that went to the States that made you pay attention to 
FEMA. But the connection, where both the operational 
connections and mitigation were, was close work with the States 
and regions and local governments. That is where the disasters 
happen, that is where the preparedness had been. And I think 
FEMA had great success moving down that road.
    Mr. Kettl. One example of that, Senator Lieberman, is that 
one of the great successes in the 1990s was FEMA's effort to 
reduce the damage from hurricanes. One of the ways in which 
they did that is they worked with local builders and local 
governments to improve building codes and construction 
standards. Among other things, they created incentives for 
builders to put steel bands to keep roofs from blowing off on 
the not surprising discovery that it is a lot cheaper to do 
that in advance than to try to replace houses after the roofs 
blow off and the homes are ruined.
    So one of the things that FEMA did is they understood a 
kind of seamless link between remediation and preparedness and 
response. The way to do that was to build partnerships between 
the Federal Government, the State Government, the local 
governments, the private sector, and the nonprofit sector. They 
saw it as a bridge-building piece, which meant that when things 
happened, they had pre-existing relationships. So where it 
worked best it worked because they had worked in advance on 
remediation when they had to come in and try to solve some of 
the problems, they already had the existing relationships.
    One other quick story. I was talking to one local 
government official in Wisconsin once, who was talking about 
some of the exercises that were done. One of the things that 
she said was most useful in that was in the course of one of 
the exercises she had learned the cell phone number of the 
local FBI agent. Which meant two things. One, when something 
happened, she would know how to get hold of the FBI agent. The 
second thing, when something happened, he would take her call 
because they already had the relationship. It is that piece 
that, in some ways, we have lost along the way and is the key 
to restoring FEMA's success.
    Senator Lieberman. Thank you very much. My time is up. 
Thank you.
    Chairman Collins. Thank you. Senator Warner.

              OPENING STATEMENT OF SENATOR WARNER

    Senator Warner. Thank you, Madam Chairman.
    First I would say, as I look over your distinguished 
dossiers and the work to which you have devoted yourself by way 
of a career, we are fortunate, as a country, that people of 
your capacity and intellect are undertaking to render services 
in this area. It is very encouraging.
    Madam Chairman and my distinguished friend, the Ranking 
Member, I followed this hearing today. I have had our own 
committee hearing earlier this morning. But I want to say that 
I basically support the approaches Secretary Chertoff has with 
regard to his concept of how his Department should be organized 
and with regard to the integration of FEMA.
    And on the question of the dotted line, again I guess that 
drawing on my own inclination to pattern so many things after 
the military, I worry that in a time of national significance 
here--that was the term you used, and we ought to get a little 
better definition of when is it the triggering mechanism starts 
here. Is that possible, if I can digress from my question a 
minute?
    Who quantifies the catastrophe and rates it as one that 
triggers the necessary sequence of events within the Department 
of Homeland Security?
    Mr. Harrald. The Secretary.
    Mr. Kettl. The Secretary has to, and I think, Senator 
Warner, you have identified, quite apart from the dotted line 
question, the single most important question. And it is one 
that not only is important operationally, but it is important 
constitutionally. It is as essential as anything goes.
    But it is one of those things where I think we have in 
advance to recognize that at some point we will recognize that 
a line has been crossed. When that line has been crossed, we 
owe it to the American people to ensure that government 
provides as effective a response as possible. And then in the 
end, we make the problem drive things.
    But that is why it is important to have the debate and the 
discussion in advance and not, on the one hand, have the 
government step in too soon and run the risk that it treads on 
the principles of federalism or, on the other hand, delay in 
response and run the risk that people unnecessarily suffer.
    Senator Warner. Does the current status of the law clearly 
provide for the criteria to make that decision? If not, should 
we try to correct it?
    I am asking both of you.
    Mr. Harrald. There are specifics on government being 
overwhelmed, and how clear that is and whether how much wiggle 
room there would be from one administration to another, I think 
there is room for different definitions. And people would 
disagree on specific points. I am not sure that is entirely 
bad. I think it is a decision that has to be made and be made 
transparently.
    Senator Warner. But with the swiftness of these national 
disasters, of course we also have the problem of the misfortune 
of, let us say, a weapon of mass destruction being released in 
one of our communities, we cannot all suddenly sit around a 
roundtable and decide now is this a national disaster to 
trigger Uncle Sam?
    Mr. Kettl. This is not a good time, Senator, to have a new 
Constitutional Convention.
    Senator Warner. No, it is not.
    So I am wondering if we should not examine the law to make 
sure there is clarity that someone can make that decision and 
make it swiftly, and then set into motion the participation by 
the Federal sector in support of the State.
    Mr. Kettl. I think that makes sense, Senator, and there are 
a couple of things here.
    Senator Warner. It makes sense but is it in law? It is one 
thing for a Senator to pop up in a hearing.
    Mr. Kettl. I think it is something that we need to think 
much more carefully about and perhaps look at the law, in part 
to make sure that we have addressed the question in advance, 
that we maintain the premise of State and local government rule 
wherever possible, understand that at some point we may need 
national action and establish these criteria as clearly as 
possible so that when we enter in we are not, in some ways, 
signaling that we are shifting forever the balance of power. 
And that ultimately, we put the interest of citizens at the 
core.
    Because the primary principle is the safety and well-being 
of citizens and not the principle of separation of powers and 
not the principles of federalism.
    Senator Warner. If I might yield to the distinguished 
Chairman and Ranking Member, is this a matter that I can, or 
you as Chairman, might wish to elicit from this panel further 
comments on this point? And then we will address, and perhaps 
your staff, your able staff, can look at this issue.
    We do not want to face a problem and be sitting around 
trying to figure out when we act and when we do not act and who 
has that authority.
    Chairman Collins. We would certainly welcome your input, as 
well as our two expert witnesses on this issue. It is an issue 
that we talked about at some length in our report and the delay 
in the Secretary's designation and whether that had 
implications for the response.
    Mr. Harrald. I would like just one comment on that, going 
back to Senator Lieberman's point. I think there are some 
things that are going to be clearly an incident of national 
significance. But there are others where the government is not 
overwhelmed. And the gray area between a reactive response and 
a total Federal response, where you are really providing 
unusual responses and unusual Federal assistance, removing the 
barriers to DHS and FEMA to be responsive and reactive in the 
absence of specific State and local requests, even lacking a 
declaration, is a piece that needs to be--it is not going to 
always be clear.
    Senator Warner. Please give us your best advice. My time is 
almost up.
    On the question of the dotted line reporting, I think at 
this point in time I feel very strongly that all communications 
should go through the head of the Department of Homeland 
Security, currently Secretary Chertoff. And that you could have 
problems if you have got a collateral chain and he is not fully 
aware of what is being transmitted back and forth in that chain 
because he may well be directing other aspects of the 
Department, which are providing clear and important support to 
this crisis. And you do not want a clash of efforts that could 
cancel each other out or otherwise be redundant, or whatever.
    So we will work on that, but I wanted to identify myself 
there.
    Last, in a time of crisis, does Secretary Chertoff and his 
FEMA Director have the sufficient legal authority to order from 
the other departments and agencies the help that they need?
    Mr. Harrald. The mission assignments? Yes, sir, they do.
    Senator Warner. The mission assignments.
    Mr. Harrald. Yes.
    Senator Warner. You think it is sufficient?
    Mr. Harrald. I think it is sufficiently clear. I do not see 
any resistance in the will to do those. It has been resource 
constrained and process constrained, but not authority 
constrained.
    Senator Warner. If you are satisfied, I am going to yield 
to that. That might include the Secretary of Defense?
    Mr. Harrald. Absolutely.
    Senator Warner. I have served with about 10 of these 
individuals through my lifetime, and they are all a little bit 
different. I would like to be an observer as to someone calling 
them up and telling them I want 5,000 troops tomorrow morning, 
and here they are.
    Thank you.
    Chairman Collins. Senator Lautenberg.
    Senator Lautenberg. Thanks, Madam Chairman.
    There are lots of questions that evolve as the presentation 
goes on, and we thank you for being here with your considerable 
credentials. But obviously with that kind of a comment, you 
always find out what is the difference between what you think 
and I think at the moment.
    I, frankly, think that FEMA ought to be an independent 
agency with the same latitude. Perhaps it can be done in DHS. 
But when I look at DHS and I see the complications of the 
different services that it is responsible for, screening 
baggage and intelligence and all kinds of things, it is very 
hard to imagine lots of companies. I come out of the business 
world, and lots of companies deliberately try to siphon off 
sections so that they can have a degree of independence that 
always seems to bring out the best.
    That is where leadership counts. Dr. Kettl, you talked 
about that it is personnel or people that make the difference 
and not structure. But structure cannot be ignored. You cannot 
do it--on the basketball team, no matter how good the principal 
shooter is, if they do not know where they go on defense, they 
are in trouble.
    Dr. Kettl, in 2005, you wrote your report, ``The Worst Is 
Yet To Come.'' You said then, and I assume there has been a 
change of mind, if not a change of heart, that now structure 
matters not as much as leadership. It now seems clear that it 
was a mistake to move FEMA to the Department of Homeland 
Security, identifying something we talked about earlier, 
terrorist attacks are one thing, and natural disasters are 
quite something else.
    Does that contradict something you are saying today? Or did 
you have a change of mind?
    Mr. Kettl. What has happened, Senator, two things. One is 
that the investigations and the studies that all of us have 
done and what it is that happened, what worked and what did not 
work, has I think taught some important lessons.
    The second thing is the ability to be able to circle back 
and try to make sure that we focus on the main mission. 
Actually, I also gave an interview back when the Department was 
being created. I said it is conceivable at some point that we 
may face a major event like a hurricane that might conceivably 
swamp the ability of FEMA to be able to respond.
    My concern all along has been trying to figure how to 
structure the organization best to try to deal with its 
mission. And it has become increasingly clear to me that what 
we most need to do are two things. One is to avoid doing things 
that get in the way. That includes further restructurings and 
also things that get in the way of leadership and things that 
would most promote the connections among the pieces.
    What would concern me would be a FEMA disconnected from 
preparedness, from response, from the other things that are 
going on in homeland security. And what concerned me most about 
the way in which FEMA was operating within the Department of 
Homeland Security is that those connections were not being 
made.
    What I find most reassuring about the Committee's 
recommendation is it finds ways to link those pieces up.
    Senator Lautenberg. Dr. Harrald, you said, in March 2006, 
recognize that we are no better prepared to deal with a 
catastrophic event today than we were last August.
    So I wonder, what did we learn? DHS began operating in 
2003. It is now in its third year. Have we learned nothing in 
all of that time?
    And I would ask for quick responses because I am conscious 
of the time and the vote.
    Mr. Harrald. I think, yes, we have learned. And I think 
Hurricane Katrina has been the big lesson learned, and a lot is 
obviously being digested by your Committee and others.
    I think the issue of DHS really relegating the natural 
hazard preparedness and response to natural hazards is really 
internally a secondary role to the terrorism issue, combined 
with the structural way that FEMA was integrated into DHS, not 
as an independent agency as the Coast Guard was or Secret 
Service, but into a directorate and essentially put all of the 
resources for FEMA up for grabs bureaucratically, very 
internalized.
    And so, how it was done was as much of a problem as what 
was done. And I think a path out of that is necessary, and I 
think the Committee has provided that.
    Senator Lautenberg. Let me ask you a question that is a 
little far afield, but I think very directly related. The use 
of intelligence by DHS, by military organizations, is a 
critical factor. Now we are talking about fixing things after 
the breakage has begun.
    What about the question of where we are with our 
environmental concerns? Where are we in terms of--we are 
certainly seeing worse by way of storms, rainfall, differences 
in weather. Well, does that compare to the intelligence 
assignment that you have in the military engagement? Or do we 
go merrily along blasting pollution in the air that is 
ultimately going to disturb the waters and create more vicious 
hurricanes, etc.?
    Mr. Harrald. Actually, I think this is one of the arguments 
that I would make for having FEMA or emergency management 
within DHS. FEMA as a stand-alone agency had no research 
capability and only very limited research ties to other 
agencies. DHS is building quite a robust research capability, 
which would tie in with and is tying in with the national labs, 
university research centers, people who are doing environmental 
research and others.
    Now has that research within DHS been linked to FEMA? 
Probably not. Is that a potential? Yes.
    Senator Lautenberg. We all work for the same company; 
right? And the fact is that the company has a responsibility to 
supply us with as much information, product, etc., as we do. 
And I stare in amazement at the reports that we get about the 
worsening of our environment, about the raising of the 
temperatures, the raising of the sea level, and things that 
forecast gloom and disaster for the Navy to prepare for in the 
second half of this century, for everybody else.
    But we are going along, and we say well, OK, so we need 
some more of this, some more levees, some more of that.
    When do we step in and say hey, the patient's developing a 
temperature? And it seems to be on a constant rise. At what 
point do we use some medicine or some therapy to make the 
patient better?
    Mr. Kettl. Senator, if I could respond in two ways. First, 
I think that is a terrific set of questions, which then frames 
a second issue, which is that the thing that concerns me most 
is our ability to respond to the thing that we have not thought 
of.
    One of the things that is fascinating, if you look at the 
morning of September 11 is there were some responses that were 
not so good. There were some responses that were really 
excellent. And what separated the two was not that one set of 
people imagined the possibility of using large airplanes as 
weapons of mass destruction, but that some groups had developed 
effective integrated teams prepared to respond to a wide range 
of threats, some of which they had never anticipated.
    What we need to do is to use some of what you have 
suggested as a way to imagine some of the threats we may need 
to be concerned about.
    But the more that we press in that direction, the more we 
need to build the capacity for a wide range of things, 
including the capacity to respond to threats that may not be 
Hurricane Katrina, may not be September 11, but may be 
something we have yet to be concerned about, to think through.
    And that is what argues, I think, most for this integration 
of strategies with some heavy Department of Homeland Security 
strategic thinking, but also the ability to integrate response 
and remediation.
    Senator Lautenberg. You do not want to put the National 
Science Foundation in DHS?
    Mr. Kettl. No, but I sure hope they are reading the 
reports.
    Mr. Harrald. But they should be closely linked.
    Senator Lautenberg. Thank you.
    Chairman Collins. Thank you, Senator.
    We have a vote on, so I am going to adjourn the hearing.
    I want to thank our witnesses for their testimony. Your 
expertise is very helpful to the Committee as we grapple with 
these issues. Thank you very much for participating today.
    The hearing record will be held open for 15 days for the 
submission of questions and other additional materials.
    Senator Lieberman.
    Senator Lieberman. Just a very strong personal thank you to 
both of you. You are a national resource and a great resource 
to this Committee. Thank you very much.
    Chairman Collins. Thank you.
    This hearing is now adjourned. I want to thank the staff 
for their hard work, as well.
    Thank you.
    [Whereupon, at 1:09 p.m., the hearing was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
